  Evaluattion of Amtrak
                 A    k’s FY 20010 Fleeet Strateegy:
A Comme
  C   endable High-Level Plaan That Needs DDeeper
       Analysis
       A      s and Pllanning Integraation


                Report
                R      Nu
                        umber E
                              E-11-2

                   March
                       h 31, 201
                               11




                Evaluation
                E          Report Issu
                                     ued By


      NAT
        TIONAL RA
                AILROAD PASSENGE   ER CORPO
                                          ORATION
            OFFIICE OF INSSPECTOR GGENERALL
                    10 G ST
                          TREET, N.E
                                   E.
                 WASHING
                 W       GTON, D.C. 20002
Date:               March 31, 2011
                              2          From
                                            m:             Ted Alves, Inspector Geeneral

To:                 Joseph               Depa
                                            artment:       Office of Innspector Genneral
                    Boardman,
                      President and
                      Chief
                      Executivee
                      Officer

                                         Subjject:         Evaluation of Amtrak’ss FY 2010
                                                           Fleet Strateggy

                                         cc:               Mario Bergeron, Chief M   Mechanical
                                                             Officer
                                                           Stephen Gaardner, VP, P  Policy and
                                                             Developm  ment
                                                           DJ Stadtler,, Chief Finanncial
                                                             Officer
                                                           Al Engel, V
                                                                     VP, High Speeed Rail
                                                           Emmett Freemaux, VP M    Marketing
                                                             & Producct Developm    ment
                                                           Jessica Scriitchfield, Internal
                                                             Controls Officer


Attacheed is the report of our recently comppleted evaluaation of Amttrak’s FY 20010 Fleet
Strateg
      gy. This revieew was requ uested by thee then-Rankiing Member of the Senatte
Approp priations Commmittee, Sub bcommittee on Transporrtation, Houusing and Urbban
Develoopment, and Related Ageencies. Our objective
                                             o         waas to assess w
                                                                      whether the ccritical data
and asssumptions thhat have a maaterial impacct on the equuipment andd financial reesource
estimattes containedd in the Fleet Strategy were
                                            w reasonabble and validd.

This report documeents our find dings and maakes seven sppecific recommmendationns to improvee
Amtrak k’s Fleet Straategy and th
                                he fleet plann
                                             ning process . Your respoonse to our ddraft report iss
includeed as Append dix I.

We apppreciate the courtesies
                    c         an
                               nd cooperatiion of Amtraak representaatives duringg this
evaluattion. If you have
                    h    any queestions, pleaase contact m
                                                         me at (202) 9906-4499
(Ted.A
     Alves@amtraakoig.gov); Calvin
                               C       Evanss, Assistant IInspector Geeneral for Innspections
and Ev
     valuations, att (202) 906-4
                               4507 (Calvin  n.Evans@am  mtrakoig.govv); or Nico LLindenau,
Directo
      or, Inspectionns & Evaluaations, at 2022-906-4961 ((Nico.Lindeenau@amtrakkoig.gov).

      ment
Attachm
                      Amtrak Office of Inspector General
               Evaluation of Amtrak’s FY 2010 Fleet Strategy:
A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                     Report No. E-11-2, March 31, 2011

                         EXECUTIVE SUMMARY

T    he FY 2010 Transportation, Housing and Urban Development and Related Agencies
     Appropriation Act mandated that Amtrak prepare a comprehensive plan that provides
details and time frames for the maintenance, refurbishment, replacement, and expansion of
Amtrak’s rolling stock fleet.1 In February 2010, Amtrak included this plan, referred to as the
Fleet Strategy, as part of its FY 2011 Grant and Legislative Request. The Fleet Strategy
outlines the company’s strategic approach for acquiring new locomotives and cars to replace
its aging equipment fleet, and additional capacity to accommodate the projected increase in
ridership over the next 30 years. The plan also identifies funding requirements, discusses
financing alternatives, and includes a procurement approach designed to support a
competitive supplier base.

The Fleet Strategy calls for buying 1,200 passenger cars, 334 locomotives, and 25 high speed
train sets within the next 14 years at a cost of approximately $11 billion.2 Over the entire
planning period, from 2009 to 2040, the strategy estimates that $23 billion of capital funding
will be required to acquire equipment, undertake necessary equipment overhauls, manage
procurement projects, upgrade maintenance facilities, and provide inventories of spare parts.

Based on the importance of the Fleet Strategy to Amtrak’s future operational and financial
success, as well as the magnitude of the estimated funding requirements, in May 2010 the
then-Ranking Member of the Senate Appropriations Committee, Subcommittee on
Transportation, Housing and Urban Development, and Related Agencies, requested that we
conduct a comprehensive review of the strategy. Our specific objective was to assess whether
the critical data and assumptions that have a material impact on the equipment and financial
resource estimates contained in the plan are reasonable and valid.


RESULTS
Amtrak has done a commendable job of using a holistic approach to create a comprehensive
Fleet Strategy that identifies and addresses the myriad of issues related to fleet acquisition,
maintenance, and retirement. For example, the strategy discusses the size and age of the fleet,
factors to consider in determining when to retire equipment, financing alternatives,
advantages to pursuing different procurement strategies, and factors that could limit growth
possibilities. It provides a long-term perspective on equipment acquisition that will be very
useful and that Amtrak greatly needed.

The Strategy recognizes that additional refinements in both data and assumptions are needed
to provide more precise estimates, and that these refinements will be incorporated into future

1
  This term refers to Amtrak's passenger cars, locomotives, and train sets (line of permanently coupled
passenger coaches drawn by a locomotive).
2
  This and all other Fleet Strategy-related figures are in 2009 dollars.
                                                                                                    2
                      Amtrak Office of Inspector General
               Evaluation of Amtrak’s FY 2010 Fleet Strategy:
A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                     Report No. E-11-2, March 31, 2011

annual revisions to the plan. For example, the document notes that although ridership
demand projections should be based on a detailed route by route analysis, in order to meet
the congressional deadline for submitting a strategy, Amtrak assumed a 2-percent annual
growth rate for the car fleet. While the Fleet Strategy clearly identifies the need to refine
some assumptions, in other cases it is not clear whether Amtrak plans to revisit all of the
assumptions and estimates in the annual strategy updates.

Our evaluation identified a number of areas where Amtrak can improve the reasonableness or
validity of its data and assumptions by conducting additional and more detailed analyses. As
discussed below, these changes could have a significant impact on the projected fleet
requirements and the financial resources needed to satisfy the requirements.

Determining Rolling Stock Requirements
The strategy's high-level growth and operational assumptions may not be precise enough to
project Amtrak’s future demand for rolling stock and the financial resources required to meet
that demand. The strategy's assumption of a projected average annual growth rate of 2
percent for its total fleet of passenger cars is a reasonable first step and may be appropriate
for determining a rough estimate of future equipment needs. However, a more detailed route-
by-route analysis of ridership growth that considers existing passenger load factors would
generate a far more precise estimate. In the absence of an overall network strategy, the Fleet
Strategy adopts several other assumptions (such as no changes in routes, service levels,
schedules, or frequencies) that, if revisited, could significantly affect fleet and financial
requirements. Without a more detailed analysis, the Fleet Strategy may not identify the
appropriate number and types of equipment needed for growth on each of its routes.

Use of Multi-level Passenger Cars
The Fleet Strategy does not fully explore the potential benefits of operating additional multi-
level passenger cars. Both nationally and internationally, multi-level cars are becoming
increasingly attractive to passenger rail operators because of their higher capacity and the
financial and operational advantages they offer over single-level cars. Although Amtrak’s
strategy acknowledges the potential advantages, it does not include plans to incorporate a
higher percentage of multi-level cars into its fleet than currently exists. The strategy
anticipates potential customer resistance, although our work shows that Amtrak could
mitigate this resistance. We estimate that if Amtrak were able to replace all of its single-level
cars with a seat-equivalent number of multi-level cars, the benefits could amount to between
$174 million and $679 million (depending on the amount of luggage space provided) over
the economic life of the equipment.

Equipment Availability
The Fleet Strategy may overestimate future fleet requirements because it does not factor in
the benefits of higher equipment utilization through improved fleet reliability and
availability. Amtrak set goals to improve the availability of its fleet in its FY 2010–2014
                                                                                                            3
                      Amtrak Office of Inspector General
               Evaluation of Amtrak’s FY 2010 Fleet Strategy:
A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                     Report No. E-11-2, March 31, 2011

Five-Year Financial Plan. However, it did not account for these availability improvements
when projecting future fleet requirements in the Fleet Strategy. If Amtrak achieves its
availability targets in the Five-Year Financial Plan, it could reduce its fleet requirements and
therefore procurement and overhaul investments by $520 million.3 In addition, if Amtrak
could further improve the availability of its equipment to the levels achieved by some of the
better European operators, it could reduce its capital investments by an additional $505
million.

Economic Useful Life of Amtrak’s Rolling Stock
Amtrak’s Fleet Strategy does not use a sophisticated model that fully considers financial,
operational, and strategic factors in determining the economic useful life of its rolling stock.
The strategy uses a time-based criterion (age) to plan rolling stock retirements. Based on our
benchmarking with European passenger rail operators, we learned that other railroads
determine the best time to replace rolling stock assets using decision processes based on
financial, operational, and strategic factors. Using these factors in their decision models
results in European operators keeping their equipment in service considerably longer than
Amtrak plans in its Fleet Strategy. Especially for passenger coaches, equipment overhauls—
that only cost a fraction of the price of a new coach—may be an attractive alternative to
buying new coaches. If Amtrak were able to keep its equipment in service, for example, 10
years longer than assumed in the Fleet Strategy, it could reduce its capital investment
requirements by $1.6 billion over the 30-year-planning period.

Plan for Replacing and Enhancing Acela Express
Although the Acela Express service is one of Amtrak’s main revenue drivers, the Fleet
Strategy does not provide a clear and well-supported plan for the replacement and
enhancement of the Acela fleet. The Fleet Strategy identifies factors that Amtrak needs to
consider in developing the best option for replacing and enhancing the Acela fleet, but
recognizes that Amtrak is still short of sufficient information to make firm decisions. While
the strategy identifies two different courses of action that Amtrak could pursue, neither
option appears to satisfy Amtrak’s expressed desire to meet forecast growth in demand;
further, information to determine whether the equipment purchases would be economical to
the taxpayer is insufficient. A clear strategic focus for the Acela service and an operational
and financial assessment of the alternatives would provide Amtrak the information needed to
reach an informed decision on the requirements for replacing and expanding the Acela fleet.

Fleet Procurement Approach
Amtrak’s Fleet Strategy plans annual delivery rates of 65 single-level and 35 multi-level cars.
Based on our research, these quantities appear to be lower than needed for some

3
 The overhaul investments were calculated over each piece of equipment’s economic lifetime. We did not
evaluate if Amtrak’s targets were realistic nor the impact of potential future funding decreases on their
achievability.
                                                                                                  4
                      Amtrak Office of Inspector General
               Evaluation of Amtrak’s FY 2010 Fleet Strategy:
A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                     Report No. E-11-2, March 31, 2011

manufacturers to most efficiently operate their production lines. In addition, Amtrak’s plan of
ordering relatively small car quantities could prevent it from taking advantage of lower unit
prices generally associated with larger orders. Taken together, Amtrak’s approach will likely
lead to higher unit costs. The unit price of Amtrak’s equipment acquisitions will be a major
factor in determining Amtrak’s total capital funding requirements over the 30-year planning
period. For example, each 10-percent change in the unit price of cars, locomotives, and train
sets would have a $1.4-billion impact on the capital-funding requirement for the program.
Amtrak states that its present approach is intended to provide support for a competitive
supplier base, but the Fleet Strategy does not provide sufficient evidence to show that the
likely higher unit costs would be offset by the benefits gained.

Fleet Planning Process
Particularly considering the short time period available to meet the congressional deadline,
Amtrak did a commendable job of developing its Fleet Strategy, and plans to continually
refine and update it. Yet the strategy was not developed as part of a systematic process
integrated with other strategic plans and activities. Amtrak could improve its fleet planning
process by addressing the opportunities to improve the strategy discussed in this report as
part of a more systematic and integrated process for preparing future strategy updates.

Recommendations
This report contains seven recommendations designed to improve Amtrak’s Fleet Strategy
and the fleet planning process.

We briefed Amtrak management on our findings and recommendations on January 11, 2011.
These officials stated that they were in the process of revising the Fleet Strategy and would
try to incorporate as many of our recommendations as possible into the revision.

Management Comments and OIG Analysis
In commenting on a draft of this our report, Amtrak’s President and CEO stated that
management agreed with all of our recommendations. He noted that Amtrak addressed some
of our recommendations in the recently published FY 2011 Fleet Strategy Plan and they
identified plans to address the remaining recommendations in future strategy updates. In
addition, Amtrak will strengthen the fleet strategy planning process by ensuring that future
plan updates incorporate more precise estimates based on strategic planning activities and
business processes for the company as a whole and for each line of business. Management
also began efforts to recruit a fleet strategy manager who will be responsible for the further
development of the fleet strategy process and annual updates of the plan.
                                                                                              5
                      Amtrak Office of Inspector General
               Evaluation of Amtrak’s FY 2010 Fleet Strategy:
A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                     Report No. E-11-2, March 31, 2011

Management’s comments, which are contained in Appendix I, are responsive to our
recommendations. Management actions to improve the strategic planning process and recruit
a fleet strategy manager should lead to further improvements in future updates of the plan.
                      Amtrak Office of Inspector General
               Evaluation of Amtrak’s FY 2010 Fleet Strategy:
A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                     Report No. E-11-2, March 31, 2011




                                  TABLE OF CONTENTS

                                                                                                   Page

EXECUTIVE SUMMARY .............................................................................         1

BACKGROUND...........................................................................................   6

FINDINGS AND RECOMMENDATIONS ....................................................                       8

    Rolling Stock Requirements ...................................................................      8
    Multi-level Passenger Cars ..................................................................... 15
    Equipment Availability ............................................................................ 20
    Economic Useful Life of Amtrak’s Rolling Stock ..................................... 25
    Fleet Plan for Acela Express .................................................................. 33
    Rolling Stock Acquisition Approach ........................................................ 40
    Integration of Systematic Fleet Planning Process into
        Amtrak’s Overall Strategy ................................................................. 46


APPENDIXES

Appendix I: Comments from Amtrak’s President and CEO ...................... 51
Appendix II: Evaluation Methodology ........................................................ 55
Appendix III: OIG Team ............................................................................... 56
                                                                                                                                                                                          6
                           Amtrak Office of Inspector General
                     Evaluation of Amtrak’s FY 2010 Fleet Strategy:
    A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                           Report No. E-11-2, March 31, 2011

BACKGROUND

In FY 2009, the National Railroad Passenger Corporation (Amtrak) carried more than 27 million
passengers over 21,000 route miles to more than 500 destinations in 46 states, the District of
Columbia, and 3 Canadian provinces—an average of about 75,000 riders per day on up to 300
daily Amtrak trains.

At the end of FY 2009, Amtrak owned and maintained an active fleet of rolling stock consisting
of 1,286 passenger cars, 328 locomotives, and 22 train sets (of which 20 are high-speed train
sets). The fleet’s current replacement value is about $7.5 billion, based on the Fleet Strategy’s
assumptions on replacement prices.

                                                                                Age Structure: Cars
                No. of Cars                                    Base: 807 Single-Level and 479 Multi-Level Cars
                 by Type
                                                              412
                400            Single-Level Cars
                               Multi-Level Cars
                300

                                                                                         186
                200
                                                                               144
                                                                                               89                                   105
                100      75                                         63                                            79
                                                                                                                              50                       41
                                         29
                                 5                0                                                 0       8                                     0                0         0
                  0                                                                                                                                                               Age
                           >50            36-50                31-35            26-30           21-25       16-20             11-15                6-10                0-5       [yrs.]



                                                                         Age Structure: Locomotives
               No. of Locos                                     Base: 264 Diesel and 64 Electric Locomotives
                by Type
                200                                                                                             184
                                Diesel Locomotives
                                Electric Locomotives
                150


                100
                                                                                                                                      62
                 50                                       41
                                                                                               18                                                 14
                                                                                     8                                    1
                           0         0            0                      0                              0                                                      0         0
                  0                                                                                                                                                               Age
                               >30                    26-30                  21-25              16-20             11-15                    6-10                    0-5           [yrs.]
                                                                                                                                   Fleetdata_Rob_Edgcumbe_Nico.xls/Current_age
               Source: Amtrak Fleet Strategy




Most passenger cars were procured in the 1970s to mid 1990s (see above figures).4 Amtrak
procured most of the electric locomotives (AEM-7) in the early 1980s while most of the diesel
locomotives were procured relatively recently; the last locomotive was delivered in 2001.




4
    Does not include the Acela Express train sets delivered 1999–2000.
                                                                                                         7
                          Amtrak Office of Inspector General
                   Evaluation of Amtrak’s FY 2010 Fleet Strategy:
    A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                         Report No. E-11-2, March 31, 2011

In 2010, Amtrak signed two contracts to order new equipment. In July 2010, it awarded CAF-
USA a contract to manufacture 130 single-level cars to replace and supplement Amtrak’s fleet
for its long-distance routes.5 In October 2010, Amtrak awarded an equipment order to Siemens
for 70 electric locomotives for the Northeast Corridor (NEC).




5
 Similar to the Viewliner model, the cars include 25 sleeping cars, 25 diners, 55 baggage cars, and 25
baggage/dormitory cars.
                                                                                                       8
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011

                   FINDINGS AND RECOMMENDATIONS

ROLLING STOCK REQUIREMENTS

Fleet Strategy Uses High-level Assumptions That May Not be Precise
Enough to Project Future Rolling Stock Demand and Financial
Resources Needed to Meet Demand
The Fleet Strategy assumes a projected average annual growth rate of 2 percent in passenger car
fleets on all of its routes to determine Amtrak’s future needs for rolling stock. This approach is a
reasonable first step and may be appropriate for developing a rough estimate of future equipment
needs. However, to generate a more precise estimate, Amtrak needs to conduct a more detailed,
route-by-route analysis of ridership growth. That analysis also needs to consider the existing
ridership load on each route because current load factors have a significant influence on future
equipment requirements. The strategy assumed few, if any, changes to routes, train frequencies,
or the make-up of train sets. These operational assumptions also significantly affect fleet
requirements and need to be analyzed. Without a much more detailed analysis of route-by-route
operations and alternatives to meeting ridership growth, the Fleet Strategy may not identify the
appropriate numbers and types of equipment needed for growth on each of its routes. A more
detailed analysis could lead to significantly different projections in fleet and financial
requirements than those identified to date in the Fleet Strategy.

Two-Percent-Growth Rate is Less than Amtrak’s Route-Specific Demand
Projections; Could Have Significant Impact on Fleet Requirements
Ridership demand is the primary factor that determines fleet requirements. Each route has its
individual characteristics (population density and growth, household income, alternative
transportation modes, etc.) that determine current and future demand. The travel demand patterns
for each individual existing and new route needs to be considered when estimating fleet
requirements.

To account for the uncertainty associated with future ridership and revenue, standard practice
simulation models should be performed that represent the worst case, best case, and likely case
scenarios to assess different values of internal and external parameters influencing ridership
demand (economic growth, income, gas prices, etc.). To illustrate, gas price changes have a
significant impact on Amtrak’s ridership: the average gas price in 2008 was $3.47 per gallon
and, according to Amtrak, accounted for 1.45 million additional riders on Amtrak’s system—
                                                                                                                                                              9
                          Amtrak Office of Inspector General
                   Evaluation of Amtrak’s FY 2010 Fleet Strategy:
    A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                         Report No. E-11-2, March 31, 2011

compared with 2007 when the average gas price was $2.66 per gallon.6 Analyzing various
scenarios enables management to understand the effects of possible changes in these factors and
prepare for their consequences. Without reliable ridership demand forecasts, fleet requirement
predictions may not be accurate.

Amtrak’s Fleet Strategy and its draft implementation plan acknowledge that a detailed analysis is
required to more accurately estimate long-term fleet requirements. As part of the process of
developing the Fleet Strategy, Amtrak prepared route-by-route ridership projections. The figure
below illustrates the projected average growth in ridership demand from 2010 to 2018 for each
of its existing train routes, along with averages for each line of business and the overall total.7

                                                  Forecasted Route by Route Ridership Growth Rates
                                                         Annual Averages from 2010 to 2018

                                                                       Total Amtrak
                                                                        Avg. 2.5%
       5%
             NEC                                               Short Distance                                            Long Distance
             Avg. 2.2%                                           Avg. 2.9%                                                  Avg. 1.6%
       4%



       3%



       2%



       1%



       0%
                                           Hi a oui s
                                                             af




                                             y-S at e
                                                             ni
                ela




                                                            er


                                                           ols
                                               -St ce




                                              P ie ia n




                                                                                                                          le




                                                                                                                          nt
                                                                                                               Me l




                                                                                                                         ief




                                                                                                              Cr e t o
                                           M a nte r




                                                             yr




                                                                                                             e B or




                                                                                                y o west yr
                                                            es




                                                                                                                           d
                                                              s
                   l




                                              e S ice




                                          Blu dac k




                                                              t




                                                                                                               Lim t
                                                                                                                           d
                                           W o thas




                                                          ins




                                                           ws




                                                                                                                           d
                                                              n
                                Ke S prin er




                                                              e
                                                              s




                                                          eld




                                                          t er




                                                                                                                        tar




                                                                                                                         ns
                                                          uis
                                               Su er




                                                                                                                           r
                                                                                                                          a
                na




                                                          on




                                                                                                                         h
                                                                                                                      de
                                                        res




                                                         de




                                                                                                                     i te
                                                                                                                     ite




                                                                                                                     i te
                                                        ett
                                                       n ia




                                                                                                                     ag
                                                        Il li




                                                                                                      Si lv ardi n
                                                        Le




                                                       ph


                                                     rfl in
                                                        st




                                                                                                                  sc e
                                                                                                     uth Z eph




                                                                                                                     et
                                                        ly




                                                                                                                     te




                                                                                                                  rlig
                                                      rin
                                                          i




                                                                                                                  l ea
                                                                                                                   Ch
                                      H o t Ne
                                                     e rv
                                                     erv




                                                      pit




                                                    Wa
                                                      qu




                                                    . Lo




                                                                                                                  rS
             Ac




                                                     g fi
            gio




                                                        t




                                                       n
                                                    dm




                                                                                                                  uil
                                                   s ca
                                                   dF
                                                    ea




                                                                                                               Lim




                                                                                                               L im
                                                      S
                                                     .L




                                                                                                                 lm
                                                      o




                                                  r qu




                                                                                                               sE
                                                    xp




                                                  roli
                                                  wa




                                                   va
                                                   Ze




                                                     n
                                                pl e




                                                 lve




                                                                                                               Or




                                                                                                              Sta
                                                Ca
                                                rm




                                                oa




                                                                                            ve
                                               ier
                                              eS




                                                   t
                                               iro
         Re




                                              wn




                                                                                                             Pa
                                             nE




                                              syl
                                              Ca




                                                e




                                                                                                              C
                                              or
                                             lan




                                                                                                            xa
                                            Ma
                                             Ca




                                                                                                            er




                                                                                                             a
                                           ois




                                           nJ




                                                                                                         or e
                              Ve




                                                                                         Sil




                                                                                                           ol




                                                                                                           et
                                           os




                                                                                                         ew
                                          Ad
                                          go




                                                                                                         rn i
                                         wp




                                                                                                        p ir
                                          on
                                          pir




                                           ic
                                         Do




                                                                                                           t
                                         nn




                                                                                                        Te
                       l le




                                                                                                       p it
                                        Ci t




                                                                                                       as
                                        a rt




                                                                                                       ns
                                     Ill in



                                       cif




                                       Sa




                                       re
                                     i ca




                                                                                                     Sh
                                                                                                    fN
                                     n-




                                                                                                   l ifo
                                     y st
                                    Em




                                                                                                   Em
                                     Pe
                                    Ne
                      A




                                                                                                   Co
                                                                                                  Ca




                                                                                                  Su
                                      e




                                  He
                                  Pa




                                  Pe
                                  as




                                                                                                 So
                                 Th




                                 Ch
                   an




                                 ve




                                                                                                Ca




                                                                                                ke
                                rk -


                               ns
                              Ha
               Eth




                                                                                            La
                                                                                           Ci t
                             Yo


                             Ka
                            w




                           w
                         Ne




                                                                                             Incremental LD Equip FY18 FY23 V5 (2).xls/Forecasted Ridership
                        Ne




         Source: Fleet Strategy Route Specific Ridership Demand Forecast




According to the Fleet Strategy, Amtrak was working on a comprehensive route analysis to
project future ridership demand. However, to complete the Fleet Strategy in time to include it
with the FY 2011 Grant and Legislative Request, Amtrak chose to project future fleet
requirements based on a flat 2-percent-per-year growth of its total car fleet.



6
  The cross-gas-price elasticity (indicates how much ridership demand changes because of gas price changes) of
Amtrak train ridership demand in that period was 0.18 percent, which confirms other research projects, such as The
Impact of Rising Gasoline Prices on U.S. Public Transit Ridership, Christopher Blanchard, Duke University,
Durham, N.C., 2009. See also The Effects of Rising Gas Prices on Transit Ridership, Jeremy Mattson, Small Urban
and Rural Transit Center of Upper Great Plains Transportation Institute at North Dakota State University, Fargo,
N.D.
7
  Based on data used in the Amtrak Fleet Strategy, Attachment 1. These forecasts are not consistent with forecast
data used for Acela Express in the Fleet Strategy, Table 8, p. 42.
                                                                                                                      10
                          Amtrak Office of Inspector General
                   Evaluation of Amtrak’s FY 2010 Fleet Strategy:
    A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                         Report No. E-11-2, March 31, 2011

Existing and Optimal Load Factors for Each Route and Service Need to be
Considered when Planning Future Rolling Stock Needs
Although 2 percent annual growth rate appears to be a conservative assumption compared with
Amtrak’s overall growth projection of 2.5 percent until 2018, it does not take into account actual
passenger loads—an important factor in determining when additional equipment will be needed.

The load factor is a measure of how much of the available seat capacity is being used by
passengers and is defined as the number of passenger-miles traveled as a percentage of the total
seat-miles available. Services currently having low load factors might accommodate future
demand growth without adding any cars or trains. Services currently having high load factors
might require immediate capacity adjustments to accommodate existing demand and the
projected growth. Therefore, considering the current and optimal load factors is of central
importance within the fleet planning process.

For example, we compared existing route-specific load factors to the 2-percent-flat-rate growth
of the car fleet to determine the impact on requirements. The comparison assumed that ridership
demand (in passenger miles) increases at a 2-percent annual rate, and that an additional car is
added to the consist8 as soon as an average load factor of 60 percent is reached.9

The financial impact of over-planning and under-planning10 on six selected routes that we
analyzed is significant, as shown in the following figure. For four routes, with a lower average
existing load factor, the Fleet Strategy over-plans by more than 100 cars—a purchasing value of
more than $350 million. Conversely, for the two routes with a higher average existing load
factor, the effect of under-planning is about ten cars ($35 million).




8
  Consist: The makeup or composition of a train of cars, their number and specific identity.
9
  For this analysis, we used a 60 percent average load factor as an indicator of a capacity-constrained condition.
10
   As used here, over-planning means that the strategy’s approach plans for more seat capacity than needed for meet
demand. Accordingly, under-planning means that Amtrak plans for less capacity than needed to meet demand.
                                                                                                                                                                                               11
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011

               Comparison Flat-Rate Growth vs. Individual Average Load Factor (ALF) -specific Growth
                                  Examples from Short Distance Routes, FY 2009-2040
                                      Examples: Over-planning                                                                   Examples: Under-planning
      Cars                                                           PACIFIC
       per     SAN JOAQUINS                 KEYSTONE                SURFLINER             CAPITOLS                                PENNSYLVANIAN                         CAROLINIAN
      Train
                                                                                                                                           ALF:                                ALF:
       14              ALF:                     ALF:                      ALF:                ALF:
                                                                                                                                           73%                                 75%
                       37%                      36%                       32%                 27%
                                                                                                                                                                                        12.0
       12
                                                                                                                                                     10.9

       10                                                                  9.4
                                                 9.0                                                                                         8.9                                9.1
                                                                                                            Cars per train in
        8                                                                                                   current consist
                                                                                              6.8
                        5.8                            6.0
        6                                                           5.2          5.2                        Cars per train in
                                          5.0                                                                                        4.9                                5.0
                                                                                                             2040 with 2%
                              4.2
                                                                                        3.7          3.7     annual growth
        4        3.2
                                                                                                             Cars per train
        2                                                                                                      with ALF-
                                                                                                            specific growth*

        0
                                                                                                                                   LoadFactor_Analysis_RPS-08-Stats_SD_FY09_60%.xls/LF_Calc
                Deviation: 1.6            Deviation: 3.0           Deviation: 4.2       Deviation: 3.0                             Deviation: -2.0                   Deviation: -2.9
                      X                         X                         X                   X                                           X                                 X
                7 train sets=             8 train sets=            10 train sets=       8 train sets=       A car is added          2 train sets=                     2 train sets=
                   11 cars                   24 cars                  42 cars              24 cars           to the train              -4 cars                           -6 cars
                over-planned              over-planned             over-planned         over-planned       consist as soon         under-planned                     under-planned
                                                                                                             as an ALF of
                ~$38.5 mil**              ~$84 mil**               ~$147 mil**          ~$84 mil**         60% is reached           ~$-14 mil**                        ~$-21 mil**

            * Assumed 2% growth in ridership demand (=passenger miles)                                                                                                 Values rounded
            ** Assumed avg. price per car = $3.5 million
            ALF: Average Load Factor
            Source: RPS report RPS-08-Stats for FY 2009, Amtrak National Consist Book
                                                                                                                                                                                      27



Assuming that over-planning and under-planning will balance out and that consequently the 2-
percent growth rate will provide a reasonable estimate of equipment needs may not be valid.
Specifically, the following figure shows that existing average load factors are below an assumed
constraint-level of 60 percent for 30 of Amtrak routes. These routes provided 77 percent of all
seat miles travelled in FY 2009. In other words, only 23 percent of the FY 2009-provided seat
miles were on routes that are currently capacity-constrained. Using the 2-percent-flat-rate growth
assumption on the routes that are not capacity-constrained could lead to over-estimating
equipment needs, potentially increasing costs by hundreds of millions of dollars.
                                                                                                                                                                                   12
                         Amtrak Office
                                     e of Inspecto
                                                 or General
                  Evaluatio
                          on of Amtraak’s FY 2010 0 Fleet Stra
                                                             ategy:
   A Com
       mmendable
               e High-Leve
                         el Plan That Needs Dee  eper Analys sis and Plan
                                                                        nning Integrration
                        Reeport No. E--11-2, March
                                                 h 31, 2011

                                                            Average Load Fa
                                                                          actors (ALF) FY 2009
                                                                                          2
          Average                                                            -All Amtrak Services-
       Loa
         ad Factor %                                                                                                                                         Seat Miles (1,000)
                                  Potentially Over-Plann
                                  P                     ning:                                ALF:                         Po
                                                                                                                           otentially Under-Plann
                                                                                                                                                ning:
                                  ~
                                  ~77%   of Total Seat Miles
                                                       M                                    < 60%                         ~23% of Total Seat Milles
        80
         0%                                                                                                                                                                2,500
                                                                                  Se
                                                                                   elected “Constraint”-
                       Load Factorr                                                C
                                                                                   Criterion: 60% ALF
                       Seat Miles (1,000)
                                  (
                                                                                                                                                                           2,000
        60
         0%


                                                                                                                                                                           1,500

        40
         0%
                                                          Av
                                                           verage Total Amtrak:                                                                                            1,000
                                                             50% Load Factor

        20
         0%
                                                                                                                                                                           500



        0
        0%                                                                                                                                                                 0
                            H e -S t.L r




                                     Blu dack
                                         Cr e in i




                                                        a




                                                         t
                                       Hia l len
                                      n J ton e




                                                         t




                                     Ad Train
                                        prin yer




                                            sE r




                                       we St ar




                                            Lim r
                                     Wo a gl e




                                                        n
                                                          l
                                                      es
                                      osi rvic e




                                                        o




                                                      or
                                                         s
                                        Ke ate




                                          rm n t


                           Ch ois Z al




                                         e B ed




                                         Sta ie f


                          y o ver M ed
                                       y-S in s
                                                        s


                                                        s




                                             dF s




                                        syl t te
                                       Ca n ian
                                                         r




                                         P a eld




                           S o S ilve er




                                       Ma ited
                                       ow itols




                                                       o
                                      ic S st er




                                                     ter




                                       Au eans
                                                        s
                                                    ina
                                                  cen
                                                     hy




                                    ore rligh




                                                  a te
                                   Te ephy
                                    pir rfl ine




                                    Eth L oui




                                                       i




                                                    de
                                                  tha




                                                  c el
                                                  e tt




                                                  ew




                                                 inia
                                    rni ront
                                                  ou
                                                     n




                                                    d




                                                ete
                                                    o




                                                 rin
                                                  Ill




                                 S il Limi t
                                                Ch
                                                   it




                                                  e
                                               qu




                                               on




                                               gfi
                               Ill in egi o
                                                St




                                               ep



                                                   l




                                               ui l
                                              dm
                                                A




                                             sca
                                             a rd




                             Em t L im




                                          eW
                                                a




                                                A
                                              lm
                                                p




                                            rqu
                             Su ort N




                                             va
                                                s
                                            wa
                                             ys




                                               n
                                               r




                                            r ol
                                               e




                                           l ve




                                               l
                                           ne




                                             t.




                                           Or
                                          Ca




                                             o
                                          oa


                                          an




                                         aZ




                                          to
                                           st




                                         iro
                                          er
                                            u
                                        eS




                                        Pie




                          C a l ls-T




                                        Ca
                         Ha rtla n




                                          C
                                        xa
                                         R
                                      Ve




                                       ol
                                    ew
                                    go




                                       e
                                    pir




                      L a oa st
                                   wp




                                   nn
                                  n- S
                                    st




                                  p it
                                  ns
                                  Cit
                               eD




                                uth
                                Ho


                                 Sa
                                 c if




                                 Fa




                                 re
                                ea


                               ica




                               Sh
                              li fo




                              fN
                                  a
                             Em




                               Pe
                            -Ne




                             Ca
                             ve
                            Pa




                            Pe
                             C
                            as




                           rth
                           Th




                          ara




                          ke
                         ns




                       t on
                      No




                    i ag




                     Cit
                    Ka




                    w




                  ing
               y -N
                Ne




               sh                                                                                                                 Loadfactors_all_Routes_FY0
                                                                                                                                                           09.xls/sorted
          Source: Route Performancce Report, Year-to-Date, Sep
                                                             ptember 2009,
             an




           Wa
         Alb




          November 4th 2009
                                                  : Short Disstance Routes         : Long Distance Routes   : North East Corrridor (NEC)




Assump  ption that Additional
                   A        l Cars Can be Added
                                              d to Existing Trains M
                                                                   May Not be
Realistiic, Given Train
                  T     Config
                             guration Requiremen
                                      R        nts
Operation nal considerrations relateed to the typees of equipm
                                                             ment needed to provide ooptimal serviice
on indiviidual routes can
                       c also affeect fleet requ uirements. TTrains can bee made up off a combinatiion
of coach,, sleeper, caffé, diner, lou
                                    unge, and baggage cars. T To accommoodate futuree demand, ceertain
consist reequirements and restrictiions may occcur that needd to be consiidered whenn planning a
route-speecific expanssion of capaccity.

        owing illustration shows a typical co
The follo                                   onsist of the C
                                                          Capitol Lim
                                                                    mited:
                                                                                                       13
                            Amtrak Office of Inspector General
                     Evaluation of Amtrak’s FY 2010 Fleet Strategy:
      A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                           Report No. E-11-2, March 31, 2011

In FY 2009, the Capitol Limited service had an average load factor of 69 percent—the highest
average load factor of any long-distance Amtrak train.11 Expanding capacity by adding one or
more cars raises various issues that Amtrak has not addressed in its Fleet Strategy, among them:
          Are there operational or infrastructure-related constraints that would prohibit running a
           longer train?
          Would the power of two locomotives still be sufficient to pull the train without
           significantly affecting travel time?
          Would one diner car have sufficient capacity to serve all passengers?
          Would the baggage capacity be sufficient?
          How would the overall financial performance change?

Amtrak’s proposal to add more coaches or sleepers to existing trains without considering all of
these issues could lead to suboptimal estimates.

Assumption of No Locomotive Growth May be Unrealistic
Requirements for locomotives need to be based on projected train consists and schedules.
Planning for additional seat capacity also means potentially adding locomotives if additional
trains are run or longer (heavier) trains need additional propulsion power.

Based on the 2-percent annual growth in Amtrak’s car fleet and the assumptions discussed, the
Fleet Strategy projects a need for an increase in the single-car fleet from 807 cars in 2009 to
1,433 in 2040—a 78-percent growth over the 30-year planning period. Similarly, the strategy
projects that the need for multi-level cars will increase from 479 to 851 over that same 30-year
period. The strategy projects no need for an increase in diesel locomotives, which remain at the
current level of 264, and only a relatively small increase in electric locomotives, from 64 to 70.

Based on the growth rate assumptions used in the Fleet Strategy, we would expect a demand for
more locomotives, given that the number of cars is increasing significantly. The current ratio of
cars per locomotive is 3.9; this would grow to 6.8 in 2040. Without a detailed analysis of power
requirements, the danger exists that Amtrak could end up short of locomotives.


Conclusion

Amtrak’s Fleet Strategy is a reasonable first step and may be appropriate for determining a rough
estimate of future needs for rolling stock. Without a detailed analysis of the assumptions, Amtrak
may not have the information needed to ensure that it is procuring the appropriate numbers and
types of rolling stock required on each of its routes. A more detailed analysis of assumptions


11
     Amtrak Monthly Performance Report for September 2009.
                                                                                                     14
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011

could lead to significantly different projections in fleet and financial requirements than those
identified in the Fleet Strategy.


Recommendation

We recommend that the President and CEO ensure that future strategy updates include a more
detailed process to determine future rolling stock requirements. Specifically, this would include:
      route-specific ridership demand forecasts incorporating service extensions and new
       services, in addition to existing service;
      the identification of external factors that significantly influence ridership demand,
       sensitivity analyses to measure their impact, and alternative strategies to accommodate
       potential changes in demand;
      equipment-type-specific load factors (for example, sleeper v. coach cars);
      the consideration of possible consist alternatives and changes in train frequencies; and
      an analysis of the locomotive requirements needed to support future car fleet
       requirements.


Management Comments and OIG Analysis

Management responded as follows:

       “Management agrees with the recommendation. Amtrak has taken a conservative position
       regarding the growth assumptions in assuming 2-percent growth per annum. We
       acknowledge that a more detailed growth model delivers more precise forecasts. In fact,
       Amtrak already has detailed studies of potential ridership demand by route and these are
       regularly updated. As the Fleet Strategy Plan evolves and is updated, we will bring those
       into the assumptions to refine the need.”

We consider management’s comments to be responsive to our recommendation.
                                                                                                                        15
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

MULTI-LEVEL PASSENGER CARS

Fleet Strategy Does Not Fully Explore Benefits of Operating
Additional Multi-level Passenger Cars

Both nationally and internationally, multi-level passenger cars are becoming increasingly
attractive to passenger rail operators because of their higher capacity and the financial and
operational advantages they offer over single-level cars. Although Amtrak’s Fleet Strategy
acknowledges the potential advantages, it does not incorporate a higher percentage of multi-level
cars into its fleet than currently exists. While the Fleet Strategy expects potential customer
resistance to the increased use of multi-level cars, our work shows that Amtrak could mitigate
this resistance.12 We estimate that if Amtrak replaced all of its single-level cars with a seat-
equivalent number of multi-level cars, the benefits could amount to between $174 million and
$679 million (depending on the amount of luggage space provided) over the economic life of the
equipment.

Other Passenger Rail Operators are Expanding their Use of Multi-level Passenger
Cars
Many passenger rail operators, both domestic and foreign, have recently placed orders for
significant numbers of multi-level passenger cars, including the following:
        New Jersey Transit in July 2010 approved an order from manufacturer Bombardier for
         100 double-deck commuter cars.
        In 2009, the German railroad company Deutsche Bahn and manufacturer Bombardier
         signed a contract for 800 multi-level cars to add to the 2,000 multi-level cars they already
         operate.
        From 2008 to 2010, the Swiss railroad SBB ordered 74 multi-level EMU13 train sets,
         consisting of close to 400 multi-level cars, from Stadler Rail AG.

Multi-level Cars Provide More Seat Capacity at Lower Cost
Many financial and operational benefits are associated with operating multi-level cars because
they typically provide significantly more seats than a single-level car. If a multi-level car
contains 33 percent more seats than a comparable single-level car, then three multi-level coach
cars can carry the equivalent number of passengers as four single-level coach cars. Reducing the
number of cars needed provides many benefits:
        Lower procurement costs: Using the cost estimates from Amtrak’s Fleet Strategy, four
         single-level cars will cost $14 million, versus three multi-level cars costing $13.5 million.


12
   In some cases, Amtrak’s state partners have shown resistance toward the use of multi-level cars. For these state
services, Amtrak may not be the ultimate decision-maker.
13
   EMU: electric multiple unit—train consisting of self-propelled coaches, using electricity as the propulsion power.
                                                                                                        16
                            Amtrak Office of Inspector General
                     Evaluation of Amtrak’s FY 2010 Fleet Strategy:
      A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                           Report No. E-11-2, March 31, 2011

          Lower maintenance costs: The maintenance cost for four single-level cars will be higher
           than for three multi-level cars. Although maintenance of seats and flooring will be
           comparable, three multi-level cars have 33 percent fewer trucks, wheels, and HVAC14
           systems requiring maintenance than four single-level cars.
          Lower infrastructure costs: A train made up of single-level cars will require longer
           platforms and station track space than one with multi-level cars. This could require more
           capital investment to upgrade infrastructure to adapt to longer trains. In addition, using
           trains with multi-level cars could prevent or at least delay investments in rail
           infrastructure to enhance track capacity.
          Lower operating costs: Three multi-level cars are lighter than four single-level cars
           because they have fewer trucks, wheels, and HVAC systems; therefore, they require less
           locomotive power, reducing energy costs.

From a strategic point of view, if multi-level cars can meet Amtrak’s needs, it makes sense to
employ as many multi-level cars as possible.

Despite the potential financial and operational benefits, Amtrak’s Fleet Strategy does not take
advantage of the opportunity to replace its single-car fleet with multi-level cars. Rather, Amtrak
plans to replace its car fleet one for one—both single-level and multi-level cars.

Amtrak Could Mitigate Operational Barriers to the Increased Use of Multi-level
Cars
During our interviews, we were told that multi-level cars may not be considered feasible for
Amtrak because of the following:
          Clearance envelope restrictions in the Northeast Corridor (NEC) tunnels do not allow
           Amtrak to operate its current multi-level cars.
          Multi-level cars in service by commuter railroads do not offer sufficient and convenient
           passenger luggage space.
          Passenger movements in multi-level cars are more difficult because of climbing and
           descending stairs.
          Trains with multi-level cars may require longer trip times due to potentially slower
           speeds and longer dwell times.




14
     Heating, ventilation, and air conditioning.
                                                                                                                       17
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

As part of our review of the Fleet Strategy, we contracted with LTK, an experienced
transportation engineering and consulting company, to evaluate the feasibility and practicability
of using multi-level coaches in the NEC.15 We assumed that the NEC is the most restrictive route
for the use of multi-level cars; therefore, if the concerns could be resolved for the NEC, they
would also be resolved on other Amtrak routes.

LTK’s assessment covered various areas critical to running multi-level cars on the NEC, such as
        dynamic clearance envelope restrictions;
        existing Amtrak service standards (seating, legroom, luggage storage, aisle widths,
         ADA16 accommodations, food service, passenger environmental conditions, etc.);
        relative impact of multi-level cars on running time, power usage, and locomotive power
         requirements; and
        potential seat capacity gains.

LTK’s evaluation found that existing multi-level cars, such as those operated by New Jersey
Transit and the Atlantic City Express Service (ACES),17 could operate on Amtrak routes in the
NEC with no major structural modifications and still provide approximately 33 percent more
seats per car.

Amtrak Could Reduce its Capital Investments by Using More Multi-level Cars
The financial benefit of procuring multi-level coach and business class cars instead of single-
level cars is substantial. Specifically, if Amtrak replaced all single-level cars with multi-level
cars providing the same amount of seat capacity, Amtrak could reduce its capital investments by
        up to $174 million if the multi-level cars provided the equivalent luggage space per
         passenger currently provided on Amfleet cars, or
        up to $679 million if the multi-level cars offered equivalent luggage space per passenger
         as currently provided on ACES trains.18

The following figure illustrates how Amtrak could realize the financial benefits of multi-level
cars by replacing single-level cars at various substitution rates.




15
   LTK Engineering Services: AMTRAK NEC NORTHEAST REGIONAL, Alternate Passenger Coach Study,
September 28, 2010.
16
   Americans with Disabilities Act.
17
   ACES trains run between New York City and Atlantic City and are operated by New Jersey Transit.
18
   Amtrak currently does not have a set standard for luggage space per passenger. Instead, we used the luggage space
currently provided by Amfleet I and ACES cars. For details, see the LTK report.
                                                                                                                                                              18
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011

                                        Potential Reductions in Capital Investments*
                                             Multi-Level vs. Single-Level Coach Cars
              [$ million]                              with Different Luggage Space Options
                700                                                                                                                              679
                                                                     Based on ACES
                                                                        Luggage
                600                                                 Space/Passenger
                                                                                                                      543

                500
                                       Based on Amtrak
                                      Amfleet I Luggage                                   407
                400                   Space/Passenger


                300                                               272


                200                                                                                                               174
                                      136                                                                139
                                                                              105
                100                                    70
                           35

                 0
                                20%                         40%                     60%                         80%                     100%
                                                                                                                            Route_Single_BiLevel.xls/Effect

                                  Rate of Substitution of Single-Level Cars with Multi-Level Cars

                      Luggage Space per Passenger:
                      Amtrak NEC Amfleet I Single-Level Car: 7.11 (8.01) sqft per coach (business) passenger
                      ACES Multi-Level Car:                  2.95 sqft per passenger
                      ACES: Atlantic City Express Service

                      * Investments in procurement and overhauls over each piece of equipment’s economic life
                      Source: OIG calculation based on LTK report




Although not included in the figure above, we estimate that Amtrak could achieve additional
savings through reduced maintenance, infrastructure, and operating costs. For example, LTK
calculated the difference in energy consumption on selected NEC Regional trains if Amtrak
reconfigured the trains with multi-level cars. This calculation showed that NEC Regional trains
equipped with multi-level cars could be 11 percent to 13 percent more energy efficient on a
kilowatt-hour-per-seat basis. Given that Amtrak spent about $35 million in 2007 on electric
traction power for NEC Regional trains, the energy savings attributable to a conversion to multi-
level cars could be significant and would also support one of Amtrak’s strategic goals—to
increase energy efficiency.


Conclusion

Using a higher percentage of multi-level cars in its fleet could provide Amtrak with more seat
capacity at lower cost. Not only would a greater use of multi-level cars reduce the capital
investments required, but their increased use would also support Amtrak’s goals of improved
financial performance and energy efficiency.
                                                                                                   19
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011

Recommendation

We recommend that the President and CEO ensure that future strategy updates consider
increasing the use of multi-level passenger coaches wherever practical and feasible.


Management Comments and OIG Analysis

Management responded as follows:

       “Management agrees with the recommendation. The 2010 Fleet Strategy Plan identified
       the need to investigate greater use of multi-level equipment to replace existing single
       level cars. The FY 2011 version of the Fleet Strategy Plan has taken this topic further
       discussing bi-level cars for use in state supported services contingent on the agreement
       with the states that financially support those services. The OIG report also discussed
       introduction of multi-level cars on NEC services. This was also specifically addressed in
       the FY 2011 version of the Fleet Strategy Plan. Amtrak has significant concerns about
       introducing this type of equipment on these services. These concerns and options will be
       analyzed by the new fleet strategy manager with written findings developed no later than
       December 31, 2011.”

We consider management’s comments to be responsive to our recommendation.
                                                                                                                    20
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

EQUIPMENT AVAILABILITY

Amtrak’s Fleet Strategy May Overestimate Future Fleet Requirements
because it Does Not Factor in Benefits of Higher Equipment
Utilization through Improved Reliability and Availability

Amtrak set goals to improve the availability of its fleet in its FY 2010–2014 Five-Year Financial
Plan. However, it did not account for these availability improvements when projecting the future
fleet requirements in the Fleet Strategy. If Amtrak achieves its availability targets in the Five-
Year Financial Plan, it could reduce its fleet requirements and therefore procurement and
overhaul investments19 by $520 million. In addition, if Amtrak improved availability of its
equipment to the levels achieved by some of the better European operators, it could almost
double that total savings.

Amtrak Has Made Progress in the Past 5 Years in Improving Fleet Availability
The total amount of equipment required for Amtrak’s operations is determined by adding the
number of cars and locomotives needed to provide service plus an extra number of each type of
car and locomotive to account for those that are expected to be out of service for maintenance
reasons. Consequently, Amtrak’s overall fleet size requirement is partly determined by the
reliability and availability of its equipment.

For FY 2009, Amtrak planned that about 83 percent of its active car and locomotive fleet would
be available for service at peak times, with the rest in workshops for preventive maintenance,
repair, or overhaul work, as shown in the figure below.




19
   The overhaul investments were calculated over each piece of equipment’s economic lifetime. We did not evaluate
if Amtrak’s targets were realistic nor the impact of potential future funding decreases on their achievability.
                                                                                                                                                                                                                           21
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011

                                                           Planned Availability of Amtrak’s Active Fleet


                                  Planned Availability: Cars                                                                 Planned Availability: Locomotives
        1,400                                                                                                   350

                                                     229                                                                                                    58
        1,200                                                                                                   300


        1,000                                                                                                   250

                                              Availability:                                                                                       Availability:
           800                                                                                                  200
                                                83.2%                                                                                               82.6%
                              1,360                                                                                             334
           600                                                                                                  150
                                                                                       1,131                                                                                                    276

           400                                                                                                  100


           200                                                                                                   50


               0                                                                                                  0
                           Active Fleet          PM*, Repairs,             Available for Service                            Active Fleet             PM*, Repairs,                Available for Service
                                                  Overhauls                                                                                           Overhauls
                                                            Amtrak_Fleet_Planned_Availability.xls/Def.Avail                                                       Amtrak_Fleet_Planned_Availability.xls/Def.Avail



       Comment: Acela Express not included                                                    *PM: Preventive Maintenance                  Source: System Fleet Plan FY 2009, Version 5/16/2009




This planned availability is determined based on information from Amtrak’s Mechanical
Department on the number of each type of equipment it expects to be unavailable for service due
to planned and unplanned maintenance requirements. Unplanned maintenance requirements are
normally based on historical equipment reliability and performance data. For example, HHP-8
locomotives have been historically unreliable; therefore, only 64 percent of the fleet is planned
for service on any given day. The planned availability in FY 2009 for each type of car and
locomotive varies from 64 percent to 100 percent, as shown below.

                                           Planned Availability for Amtrak’s Rolling Stock, FY 2009
           No. of
       Equipment in                                                                                                                                                                               Planned
        Active Fleet                                                                                                                                                                             Availability
       400                                                                                                                                                                                                          100%
                                                                                                                                               100%

                    89%                                                                                                                               89%
                          88% 87%
                                      85% 83% 83% 83%                                                                                                       86%                                                     80%
       300                                            82% 81% 81% 81% 81% 80% 80% 80% 80% 80%                                                                                                          80%
                                                                                                                                                                  78%
                                                                                                                                                                           73% 71%
                                                                                                                       71%
                                                                                                                              67% 65%
                                                                                                                                                                                              64%
                                                                                                                                                                                                                    60%
       200
                                                                                                                                                                                                                    40%

       100
                                                                                                                                                                                                                    20%


           0                                                                                                                                                                                                        0%
                                              h




                                          2- 8
                                 d S ch




                                 d S ch
                                           ic e




                                           ic e




                                            fé




                                              9
                    S u on C h




                                 d S ch




                                              s
                                            ar




                                            er




                                 Tra -8
                              Ca ep er
                                            ch




                                              7
                                              r


                                            ar
                                ne vice




                                ar l vice




                                              e




                                            os
                                    rC h




                                             2
                                    Sle r




                                             e




                                              t
                                          Se
         r. P r Foo leepe




                            ne arrie
                                         las
                                          ac




                                         F5
                            rita rvic
                                            c
                                            c




                                         od
                                        P-4


                                         M-
                                        Ca




                                       Di n
                                       eC




                          r C ur C




                                          P
                                        oa




                                        oa




                                        oc
                                          a




                                        oa
                                        oa




                                        oa
                                      erv
                                      erv




                                     P -3




                                     HH
                                      Co
                                      Co




                                     .C




                                     lM
                                      er




                                     AE
                                      er




                                      in
                  P-3 nia L
                                    IC




                                    rC




                                    Se
                                   bC
                                    ch
                                   ag




                                     C
                                 dS




                                  ge
                                    S


                                    o


                                 us
                 Am rnia




                                 ua
                                  II




                                oa


                Vie u to
                               ne




                               gg




                               od
             r lin lin er




                                 r
                               et




                            rB
                            oo
                            oo


                             et




                          2D
                            oo
                            riz




                               r




                           ss
                          r fli



                              i




         Su fic P




                         lifo
                          fle




                          Ba




                          Fo
                             l
                        lifo




                           A
                           r
                       f le




                      w li
                     aF




                      IF


       H e on F
                     Ho




                       ne




                     He
                      pe




                    pre
                        r
                  Am




                    ne




                  Ca
                  pe
                  Ca




                  ge




                    II
                 rf li
                 aci
                   e
                 Su
                rni




                et




               Ex
               rfli
              Su




              et
            rita
             riz




            Su
           fle
       lifo




         f le




        ela
        Ho




        pe
      Am
      Ca




     Am
     He
     Su




     Ac




                                                                                                                                              Amtrak_Fleet_Planned_Availability.xls/Avail2
                   Availability: Available for Service divided by Active Fleet
                   Source: System Fleet Plan FY 2009, Vers. 5/16/2009, p. 10+11
                                                                                                                         22
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011


If Amtrak can improve maintenance practices or make equipment more reliable, more equipment
can be available for service. Improvements that Amtrak has made in maintenance practices in
response to past OIG recommendations clearly demonstrate that significant improvements in
fleet availability can be achieved.

Following are some recent examples in which Amtrak has improved equipment reliability. Each
case required dedicated effort to study current procedures and then identify ways to streamline
and improve the efficiency of maintenance practices:
        Responding to recommendations in a 2005 OIG report, Amtrak implemented Reliability
         Centered Maintenance on the Acela fleet. This allowed a change in maintenance practices
         that resulted in an increase of 10 percent in equipment available for service (two
         additional train sets per day).
        In 2006, following the recommendations of an OIG consultant, Amtrak improved the
         process used to conduct scheduled maintenance on Amfleet I coaches at Ivy City. This
         resulted in a 2.9-percent improvement in availability (ten coaches per day).
        In 2009, in response to a similar OIG study, Amtrak improved the process used to
         conduct scheduled maintenance on Superliner cars in Chicago. This resulted in a 4.1-
         percent improvement in availability (nine cars per day).

Amtrak Can Further Improve Fleet Availability, and Plans to Do So
In its FY2010–2014 Five-Year Financial Plan, Amtrak has set goals to improve its equipment
availability.20 The plan states that by 2014, Amtrak plans to increase its car availability by 2.3
percent, its diesel locomotive availability by 3.5 percent, and its electric locomotive availability
by 4.3 percent.21 However, Amtrak did not consider the impact of these planned improvements
in equipment availability in its Fleet Strategy.

If the Fleet Strategy incorporated the projections from the five-year plan, Amtrak could reduce
its projections for new equipment by 53 cars and 25 locomotives and still keep the same amount
of equipment available for service.22 This accounts for the potential reduction of $520 million in
procurement and overhaul costs over the life of these additional pieces of equipment.

Additionally, based on our benchmarking of European passenger rail operators,23 Amtrak may
well have opportunities to achieve even greater equipment availabilities for its car and electric
locomotive fleets, thus further reducing the amount of equipment needed. We obtained

20
   FY 2010–FY 2014 Five-Year Financial Plan, September 23. 2009, p. 22. We did not evaluate if Amtrak’s targets
were realistic nor the impact of potential future funding decreases on their achievability.
21
   Amtrak projects these increases in average actual availabilities. These will generally be higher than the planned
availabilities mentioned in the system fleet plan. However, a 1-percent increase in average actual availability should
result in a 1-percent increase in planned availability. This assumption is reflected in the rest of this finding.
22
   These numbers reflect that Amtrak will replace some of the locomotives twice during the 30-year period.
23
   BSL Transportation Consultants, Benchmarking Fleet Availability, September 2010.
                                                                                                                                                                              23
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

equipment availabilities from a number of European operators regarded as having good
maintenance practices that result in high levels of equipment availability.

As shown by the comparisons in the figure below, Amtrak’s availability rate for its diesel
locomotives exceeds that of the European operators, but those operators have better availability
rates for cars and electric locomotives.

                                                     Rolling Stock Availability Ratios
                                                      European Good Practice Benchmarks

                    Passenger Cars                                    Diesel Locomotives                             Electric Locomotives

      100%                                              100%                                           100%                                        Avg.: 90%
                                 Avg.: 89%
                                                               91%
      90%    87%                                         90%                       Avg.: 82%            90%
                                                                                                                 80%
      80%                                                80%                                            80%
                              92%            91%                                                                           92%                                      93%
                      89%            85%                        87%                                                                     88%           88%
              85%                                                       81%     84%    84%     81%
      70%                                                70%                                            70%
                                                                                                                 76%

      60%                                                60%                                            60%
             Amtrak    A        B      C      D                Amtrak    A        B      C      D               Amtrak       A         B     C       D
              Cars         European Operators                  Diesel        European Operators                 Electric          European Operators
                                                                Locos                                            Locos     Amtrak_Fleet_Planned_Availability.xls/BSLresults
                 Amtrak Target Availabilities 2014
                 Amtrak 2009 Actual Availabilities                                                   Source: - Amtrak FY2010-2014 FIVE YEAR FINANCIAL PLAN
                                                                                                             - BSL Transportation Consultants
                 Benchmark Availabilities




These benchmarks may have been achieved under different financial and operating
circumstances (for example, service levels, schedules, technical condition and age of fleet,
maintenance practices) than Amtrak is operating under. Further analysis would be necessary to
understand how the rates were achieved and whether they could be used as realistic goals for
Amtrak fleets.

If Amtrak could achieve the average availabilities for cars and electric locomotives reported by
these European operators, it could further reduce its procurement needs by another 52 cars and
14 electric locomotives (an additional $505 million in procurement and overhaul costs that could
be saved over the life of these additional pieces of equipment).24


Conclusion

A small improvement in rolling stock availability has a substantial impact on the amount of
equipment needed to deliver current and future services. The Fleet Strategy does not consider
Amtrak’s goals for improving the availability of its fleet that could reduce equipment
requirements and associated costs. There may also be additional opportunities to further reduce
the amount of equipment out of service by analyzing maintenance practices used by some
European passenger railroads.

24
  Because Amtrak’s availability for diesel locomotives is above the European benchmarks, there are no additional
savings with this type of equipment.
                                                                                                    24
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011

Recommendation

We recommend that the President and CEO ensure that future strategy updates consider
Amtrak’s planned equipment availability and reliability improvements and incorporate their
impact into equipment estimates. He should also ensure that future strategy updates incorporate
the impact of any additional equipment availability improvements.


Management Comments and OIG Analysis

Management responded as follows:

       “Management agrees with the recommendation. Equipment availability is a factor that
       should be considered in the planning process. We will further investigate if and how the
       availability targets will have an impact on the number of equipment required to run future
       services.”

We consider management’s comments to be responsive to our recommendation.
                                                                                                             25
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

ECONOMIC USEFUL LIFE OF AMTRAK’S ROLLING STOCK

Amtrak’s Fleet Strategy Does Not Use a Sophisticated Model That
Fully Considers Strategic, Financial, and Operational Factors in
Determining The Economic Useful Life of Rolling Stock25

Amtrak’s Fleet Strategy uses a time-based criterion to plan rolling stock retirements. Through
our benchmarking with European passenger rail operators, we learned that other railroads
determine the best time to replace rolling stock assets using decision processes based on
financial, operational, and strategic factors. Using these factors in their decision models has led
European operators to keep their equipment in service considerably longer than Amtrak plans. If
Amtrak were able to keep its equipment in service, for example, 10 years longer than assumed in
the Fleet Strategy, it could reduce its capital investment requirements by $1.6 billion over the 30-
year-planning period.

Amtrak Based Economic Life of its Equipment on a Consensus Opinion of
Marketing and Mechanical Departments
In our interviews, we were told that the economic life determinations of Amtrak’s rolling stock
fleet shown in the following table were established based on the consensus opinion of Marketing
and Mechanical Department staff after taking into consideration data on capital availability and
the equipment’s anticipated maintainability, reliability, and customer acceptance.

                                  Fleet Strategy’s Economic Life Assumptions
                                 Type of Equipment            Economic Life [Years]

                    Single-Level Coaches                                     30

                    Multi-Level Coaches                                      30

                    Tier I Train Sets                                        25

                    Tier II Train Sets                                       20

                    Electric Locomotives                                     25

                    Diesel Locomotives                                       20
                   Source: Amtrak Fleet Strategy                   Fleetdata_Rob_Edgcumbe_Nico.xls/Summary




25
 We use the common term “economic useful life” to express the economically best time to retire an asset.
Amtrak’s Fleet Strategy uses the expression “commercial life” in the equivalent sense.
                                                                                                                     26
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

Amtrak recognizes that it needs to make its replacement decisions in a more sophisticated
manner. The draft Fleet Strategy Implementation Plan recommends the development of a rolling
stock life-cycle-cost (LCC) model, which is a common method of calculating the equipments’
total cost of ownership. Amtrak can use this LCC model to help determine optimal asset
replacement times.

Other Passenger Railroads use Multiple Criteria to Make Rolling Stock
Replacement Decisions
To assess Amtrak’s method of determining the economic useful life assumptions used in the
Fleet Strategy, we contracted with SCI Verkehr GmbH26 to provide information on the criteria
European railroads use to make rolling stock retirement decisions.27

SCI learned through its research and interviews that European rail passenger operators use a
variety of strategic, financial, and operational factors to define the best time to replace their
rolling stock. SCI also found that the operators did not use the number of years and miles
operated as the primary factors in determining when to retire equipment.

The following table lists some of the criteria used by the European operators in their assessments
of when to retire equipment.




26
   SCI Verkehr GmbH is an independent consultant for the transportation sector with broad international experience
in railroad fleet strategy, asset value analysis, and rail equipment asset lives.
27
   SCI Verkehr GmbH, Replacement of Locomotive and Passenger Coach—Identification of Economical Useful
Life, August 2010.
                                                                                                                                                                                  27
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

                                             Factors to Determine Equipments’ Economic Lives

                                                                 New safety requirements or decreasing equipment reliability can lead to early
           Safety and Reliability
                                                                 replacements or overhauls.

                                                                 In times of growing demand, the economics support modernizing old equipment
           Transport Demand
                                                                 rather than wait for delivery of new equipment.

           Budget,                                               The price of new equipment and the amount of funds available often drive
           New Vehicle Price                                     decisions.

                                                                 New federal regulations (for example: emissions, ADA, etc.) could lead to early
           Regulations: Emissions,
                                                                 replacements or overhauls. Diesel locomotives are often retrofitted with new
           ADA Requirements                                      engines meeting latest emission standards rather than procure new locomotives.

                                                                 In Europe, operators have to comply with tender specifications that often require
           Tender Requirements,
                                                                 multiple-units (MU)* or operators may make a strategic shift from locomotive-
           Fleet Strategy                                        hauled trains to MU.

                                                                 Availability or non-availability of workshop capacity for equipment overhauls can
           Workshop Capacity
                                                                 influence replacement decisions.

                                                                 Early replacement decisions may be driven by part availability. Especially for
           Availability of Spare
                                                                 electric locomotives, spare parts obsolescence could require (expensive)
           Parts                                                 custom-made parts.

           Maintenance and                                       New equipment can be up to 20% more energy efficient than older equipment.
           Operating Costs                                       Maintenance of older equipment can be more costly than new equipment.

           Delivery Time of New                                  If procurement and manufacturing lead times are too long, refurbishments may
           Vehicles                                              be preferred.
         Source: Based on SCI Verkehr

          * The term Multiple Unit (MU) is used to describe a self-propelling train unit capable of coupling with other units of the same or similar type and still being
          controlled from one cab. Multiple units are of three main types: Electric Multiple Unit (EMU), Diesel Multiple Unit (DMU), and Diesel electric multiple units (DEMU).




The methods used by the European railroads show that different factors might be relevant for
different types of equipment. For example, the useful life of electric locomotives may be limited
because the technical obsolescence of major components makes overhauls or refurbishments
unreasonably expensive. However, because passenger coaches have a basic mechanical structure
(body and truck) and relatively simple parts, it is easier and less costly to refurbish them. A full-
scale modernization can extend the life of a passenger car for 15 to 20 years.

Financial Models May Help in Defining Rolling Stock’s Economic Useful Life
There are a number of analytic techniques available to help management decide on the most
economical approach to replacing existing assets with newer assets. An asset’s “economic useful
life” is defined as “… the time period that maximizes the annual worth of the existing asset or
upon the time period when the annual worth of a new asset becomes greater than that of the
present asset for one or more years.”28 This approach helps ensure that management optimizes its
return on capital investments by specifically taking into consideration all costs associated with
the particular asset, including capital investment, cost of operation and maintenance, and cost of
28
  John R. Canada, Intermediate Economic Analysis for Management and Engineering, 1972. SCI gave a similar
definition: "Economical useful lifetime is reached at the time a vehicle has to be replaced, but the costs of
modernization and operating costs for further usage of the old vehicle exceed life-cycle cost for a new vehicle."
                                                                                                                                           28
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

declining quality. The cost of declining quality quantifies the difference in customer appeal,
reflected in revenue loss, between the new and existing asset.

Other Passenger Railroads Operate their Rolling Stock Much Longer than Called
for in Amtrak’s Fleet Strategy Plan
A comparison of Amtrak’s projections in the Fleet Strategy with the information provided by
SCI shows that Amtrak plans to retire its rolling stock much sooner than other major passenger
rail operators.

Locomotives
The following table shows that Amtrak plans to retire its diesel and electric locomotives
considerably earlier than the European operators. However, from the perspective of cumulative
miles operated, Amtrak’s proposal on when to retire locomotives is much closer to when
European railroads have historically retired their locomotives. 29

                           Comparison of Locomotive Retirement Ages and Mileage
                                   Amtrak Plans vs. Actual European Railroads

                                                                            Retirement Ranges
                                                                         Age                          Mileage
                                                                        [Years]                     [Million Miles]

                     Diesel Locomotives
                                     Germany                            25-44                            2.3-2.7
                                       Italy                            39-41                              N/A
                                      France                            30-37                              N/A
                                      Austria                           35-47                            2.5-2.7
                              Sample Range                             25-47                           2.3-2.7
                      Assumption in Amtrak's
                                                                          20                               2.6*
                          Fleet Strategy

                     Electric Locomotives
                                     Germany                            34-49                            2.4-2.9
                                       Italy                            45-58                            2.6-2.9
                                      France                            37-48                            2.5-2.9
                                      Austria                           33-50                            2.5-2.8
                              Sample Range                             33-58                           2.4-2.9
                      Assumption in Amtrak's
                                                                          25                               2.8*
                          Fleet Strategy
                                                                                                 Amtrak_Fleet_Mileage.xls/Age_Comparison

                      * Based on planned retirement age and average actual miles operated per unit-year
                      Source: Amtrak Fleet Strategy, SCI Verkehr




29
  This observation does not apply for European Electric Multiple Units (EMU) train sets that operate significantly
higher annual mileages. See also the discussion regarding high-speed train sets in the next finding section on the
Acela Express.
                                                                                                           29
                         Amtrak Office
                                     e of Inspecto
                                                 or General
                  Evaluatio
                          on of Amtraak’s FY 2010 0 Fleet Stra
                                                             ategy:
   A Com
       mmendable
               e High-Leve
                         el Plan That Needs Dee  eper Analys sis and Plan
                                                                        nning Integrration
                        Reeport No. E--11-2, March
                                                 h 31, 2011

Passengeer Coaches
The Euro opean railroaads appear to
                                  o operate theeir passengerr cars signifiicantly longeer than Amtrrak
plans to in
         i its Fleet Strategy.
                     S          As illustrated in
                                                n the followiing tables, thhe European passenger ccar
fleets hav
         ve a significaantly higher percentage (26 percent to 66 percennt) of older ccars (40 yearrs
old—buiilt before 197 70) than the Amtrak passenger car fl  fleet (8.5 perccent).




SCI learn
        ned that Euro  opean railroaad passengerr cars are typpically kept in service 300 to 60 yearss
before th
        hey are retireed. The reasoon that the European raillroads have a larger perccentage of ollder
cars mayy be related to their willin
                                   ngness to reiinvest funds to refurbishh their equipmment or to
budgetary y restrictions for procuriing new equuipment. In a recent media interview, the CEO off
German railroad
          r        Deuutsche Bahn announced the t plan to innvest in a mmajor overhauul of all of thheir
1,500 IntterCity cars. The cars aree on averagee 32 years olld and are exxpected to reemain in reveenue
                                                                                                                              30
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

service for another 10–15 years.30 In addition, Canadian VIA Rail announced that it is
reinvesting in rail passenger cars and rail diesel cars that are already at least 50 years old and it
expects to operate them for another 20 years.31,32

High-Speed Train Sets
Amtrak plans to replace the existing Acela Express train sets much sooner than the European
railroads plan to retire their high-speed train sets. For example, as shown in the following table,
Germany's Deutsche Bahn plans to operate its InterCity Express (ICE) train sets between 24 and
31 years before retiring them, while Amtrak plans to retire the Acela Express train sets after 20
years of service.

                                Economic Life Assumptions ICE Trains
                                                                                                  Expected
          Deutsche Bahn                   Max. Speed             Begin of            Planned
                                                                                                 Service Life
         High-Speed Trains                     [mph]             Service            Retirement
                                                                                                   [Years]

                   ICE 1                         165                1991               2020           29

                   ICE 2                         165                1996               2025           29

                   ICE 3                         205                1999               2030           31

                   ICE T                         143            1999/2004              2028         24/29
       Source: Based on bahntech, Das Technikmagazin der Deutschen Bahn , 02/2008                    Retirement_ICE.xls/ICE




Deutsche Bahn operates various versions of its high-speed train ICE. The first German high-
speed train (ICE 1) started operation in 1991 and went through a major refurbishment in 2005
after having traveled 4 million to 5 million miles per train set, which equates to approximately
320,000 miles per year.33 For comparison purposes, in FY 2009, each Amtrak Acela train set




30
   Deutsche Bahn CEO Rüdiger Grube in an interview with German newspaper Tagesspiegel, June 13, 2010.
31
   http://www.viarail.ca/en/about-via-rail/media-room/latest-news/1397/30-october-2009-via-rail-canada-to-boost-
famed-transcontinental-train's-accessibility-and-appeal, and http://www.viarail.ca/en/about-via-rail/media-
room/latest-news/1487/29-march-2010-government-of-canada-and-via-rail-invest-in-rail-service-jobs-in-moncton.
32
   Studies show that new equipment may have a small uplift in ridership demand, but correlations between demand
uplift and attributes contributing to this demand change appear highest for seat comfort, seat layout, and ride
smoothness (correlations higher than 0.80). These attributes can also be found in refurbished equipment. See details
in R. Sheldon, C. Heywood, Accent, UK; A. Meaney, N. Robins, Oxera, UK; M. Wardman, ITS, University of
Leeds, UK in Estimating the Demand Impacts of New Rolling Stock, 2006; M. Wardman, G. Whelan, ITS,
University of Leeds, UK in Rolling Stock Quality—Improvements and User Willingness to Pay, 1998.
33
   Source: Modernisierung des ICE 1 (Teil 1), VORAUS (Zeitschrift der Gewerkschaft Deutscher Lokomotivführer,
Ausgabe März 2006).
                                                                                                                       31
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

traveled on average about 167,000 miles. Before each major refurbishment, Deutsche Bahn
conducted a technical assessment of the equipment to ensure that the technology would be viable
for the expected additional lifetime of another 15 years. Deutsche Bahn expects to retire this
series of train equipment after 29 years and over 9 million miles of service.34


Conclusion

The economic useful life of the Amtrak fleet has a significant impact on both the timing of
equipment purchases and the overall capital funding requirement for the company. The impact
can be estimated by comparing the average annual capital expenses35 of Amtrak’s rolling stock
fleet using the economic useful life in the Fleet Strategy with an economic useful life that is, for
example, 10 years longer. Extending the economic useful life of Amtrak’s fleet of passenger cars
and locomotives by 10 years could reduce its average annual capital expenses by $55 million.
Over the 30-year planning period, this would reduce capital expenses related to rolling stock by
$1.6 billion.36


Recommendation

We recommend that the President and CEO ensure that future strategy updates are based on an
economic evaluation model that uses strategic, operational, and financial factors (including
replacement costs, operating expenses, overhaul and upgrading expenses, maintenance expenses,
and revenue/ridership impact of each relevant equipment alternative) to determine the optimal
retirement age for Amtrak’s rolling stock.




34
   Assuming 320,000 miles per year, as performed to date.
35
   The average annual capital expense of an asset is calculated as the total cost of asset acquisition and overhauls
during the life of the asset divided by the asset life.
36
   These estimates are based only on the current fleet of cars and locomotives and do not include increased
operational expenses.
                                                                                                     32
                        Amtrak Office of Inspector General
                 Evaluation of Amtrak’s FY 2010 Fleet Strategy:
  A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                       Report No. E-11-2, March 31, 2011

Management Comments and OIG Analysis

Management responded as follows:

      “Management agrees with the recommendation. We have already started developing an
      evaluation model to determine the economic useful life of our different types of
      equipment. We want to focus not just on an optimal replacement time based on cost
      analyses, but also to consider the impact of additional revenue generated by attractive,
      new cars and locomotives and other factors that are identified during strategic planning
      activities for each line of business. Some of the necessary data to build a comprehensive
      model still needs to be collected, so we expect to start with a relatively simple model that
      will be improved over the next years.”

We consider management’s comments to be responsive to our recommendation.
                                                                                                                     33
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

FLEET PLAN FOR ACELA EXPRESS

Amtrak’s Fleet Strategy Does Not Provide Sufficient Analysis to
Support Recommendation to Replace and Enhance Acela Express
Fleet

Although the Acela Express service is one of Amtrak’s main revenue drivers, the Fleet Strategy
does not provide a clear and well-supported plan for the replacement and enhancement of the
Acela fleet. The Fleet Strategy identifies factors that Amtrak needs to consider in developing the
best option for replacing and enhancing the Acela fleet, but recognizes that Amtrak is still short
of sufficient information to make firm decisions. While the strategy identifies two different
courses of action that Amtrak could pursue, neither satisfies Amtrak’s expressed desire to meet
forecast growth in demand, and information is insufficient to determine whether the equipment
purchases would be economical to the taxpayer. In order to reach an informed decision on the
options for replacing and expanding the Acela fleet, Amtrak should identify a clear strategic
focus for the Acela service and conduct an operational and financial assessment of the
alternatives.

Acela Express is an Important Revenue Driver and Demand Projections Show
Continued Growth, but the Fleet Strategy is Not Linked to a Clear Strategic Focus
for this Service
The Acela Express is Amtrak’s premier passenger service on the NEC, with multiple daily trains
between Washington, D.C., New York, and Boston. Amtrak operates this high-speed rail service
using 20 train sets consisting of six passenger cars and two power cars per set. Introduced in
1999, this service now accounts for about 25 percent of Amtrak’s total ticket revenue.37 The
Fleet Strategy document outlines the expected ridership demand for Acela and projects an
average annual growth of 3.2 percent from 2009 to 2030.38

However, the Fleet Strategy is not specifically linked to the main business goal that Amtrak
wants to achieve with the Acela service. Some high-level questions that could help clarify what
aspects of the service may need to be considered in developing fleet requirements include:
        Does Amtrak want to focus on maximizing ridership on Acela trains irrespective of
         financial performance [maximize public service]?
        Does Amtrak want to focus on maximizing Acela’s operational profit [reduce Amtrak’s
         operational subsidy] irrespective of capital funding?

37
  Based on FY 2009 Monthly Performance Report, p. C–1.
38
  Amtrak Fleet Strategy, p. 42. The ridership demand forecasts were provided by Amtrak’s Market Research
Department, which uses a forecasting model developed by AECOM. This model uses a set of external variables
(population, employment, income) and service variables (travel time, travel cost, frequency, on-time performance),
which are updated regularly to account for changes. For purposes of this section, we did not review Amtrak’s
demand forecast methodology. These forecast data are not consistent with the forecasts used in Attachment 1 to the
Fleet Strategy. (See footnote 7.)
                                                                                                                         34
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

        Does Amtrak want to focus on maximizing Acela’s operational profit plus maximizing
         the benefits from capital investments in Acela assets (rolling stock, infrastructure, etc.)
         [minimize total Amtrak subsidy, both operational and capital]?

As with all of Amtrak’s business activities and decisions, costs and revenue should be chief
considerations. Not only is “improving financial performance” a strategic goal of the company,39
Amtrak also stated in its Fiscal Year 2011 Grant and Legislative Request that it is “…our plan
to…purchase equipment in a manner that is economical to the taxpayer….”40

A clearly defined strategic focus for the Acela service would assist Amtrak in determining the
best alternative for replacing and enhancing the fleet.

The Fleet Strategy Contains Two Different Courses of Action for Acela Express,
but Neither Contains Sufficient Information for Making an Informed Decision on
How to Proceed
The Fleet Strategy and its draft implementation plan effectively identify factors that Amtrak
needs to consider in developing the best option for replacing and growing the Acela fleet.

However, recognizing that Amtrak is “still short of sufficient information to make firm
decisions,”41 the strategy contains two potential courses of action for Amtrak to pursue in
replacing and enhancing the Acela fleet. We have evaluated the two potential courses of action
for the Acela fleet by assessing if the alternatives:

        satisfy Amtrak’s forecast growth in demand, and
        procure equipment in a manner that is economical to the taxpayer.

The first course of action, on page 42 of the Fleet Strategy, recommends that Amtrak
        procure 40 additional Acela cars in 4 years (2014) to lengthen each of the existing 20
         train sets by two cars, for a total of eight cars per set;
        procure two additional train sets in 2014 with eight cars per set, each powered by two
         Acela power cars or two HHP-8 locomotives; and
        replace the whole Acela fleet in 2020.42



39
   Amtrak’s New Mission, October 2009, p. 5.
40
   Fiscal Year 2011 Grant and Legislative Request, March 22, 2010, p. 2.
41
   Amtrak Fleet Strategy, p. 44.
42
   The Fleet Strategy is not specific about the capacity of the Acela fleet after the 2020 replacement. We assume for
this evaluation that the Acela fleet replacement in 2020 will consist of 20 train sets with eight cars each. Also, the
first course of action does not mention that the two Acela train sets procured in 2014 would have to be replaced
again in 2034.
                                                                                                                         35
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

In total, this approach provides approximately 3,414 additional seats, which is an increase in seat
capacity of 57 percent.43 The approximate procurement cost for the 40 additional cars and two
complete new train sets would be $256 million based on the Fleet Strategy’s pricing
assumptions. An additional $960 million would be necessary to replace the 20 Acela train sets
(with eight cars each) in 2020.

The second course of action44 is contained in the Fleet Strategy’s procurement plan (Attachment
2 of the Fleet Strategy) and recommends that Amtrak
        procure five new Acela train sets with six cars each in 2014–2015, and
        replace the current 20 train sets in 2019–2020.

This approach provides approximately 1,495 seats, a capacity increase of 25 percent. The
approximate procurement cost for the five new train sets would be $200 million, based on the
pricing assumptions in the Fleet Strategy. The procurement cost for replacing 20 train sets in
2019–2020, with six cars each, would require an additional $800 million. The cost for this course
of action is included in the Fleet Strategy’s estimate of a total funding requirement of $23 billion.

Although both courses of action plan to replace the current Acela fleet around 2020, there is no
plan to procure any additional capacity at that time.45

The Fleet Strategy did not reconcile the discrepancy between the course of action in the text of
the report and the one in the procurement plan, so we evaluated both.

Does the Fleet Strategy Satisfy Amtrak’s Forecast Growth in Demand?
To assess at a high level how well the two courses of action for Acela satisfy the forecast
demand, we calculated and graphed the average Acela load factors based on Amtrak’s projected
demand (in passenger miles) and capacity (in seat miles) in the Fleet Strategy over the next 20
years (see figure below).




43
   This assumes that the new consist contains six business cars, one first class car, and one café car. In case of two
first class cars and five business cars, the increase in capacity would be 2,866 seats (48 percent).
44
   Amtrak told us that the first course of action was the preferred option.
45
   The procurement plan also does not consider replacing the five train sets being introduced 2014–2015 (second
course of action) after they have reached their expected economic life around 2035.
                                                                                                                                                                  36
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

                          Average Load Factors for Alternative Fleet Growth Scenarios
       Average                   - Based on Market Research Ridership Forecasts -
     Load Factor
     90%
                       Report: Add two cars per train set +
                                                                    Total Procurement: $256m plus $960m (~$102,000 per seat)
                       add two train sets (8 cars)
                       Procurement plan: Add five more              Total Procurement: $200m plus $800m
     80%               train sets (6 cars each)                     (~$134,000 per seat)



                                           Capacity
     70%
                                           Enhance-
                                             ment


     60%




     50%                                                                     Planned
                                                                             Replace-
                                                                              ment
                                                                   w/o further capacity enhancement

     40%
             09




                         11




                                    13

                                           14




                                                       16




                                                                     18

                                                                            19




                                                                                         21




                                                                                                      23




                                                                                                                        26




                                                                                                                                       28
                  10




                              12




                                                15




                                                              17




                                                                                  20




                                                                                               22




                                                                                                           24

                                                                                                                25




                                                                                                                               27




                                                                                                                                               29

                                                                                                                                                       30
           20




                       20




                                         20




                                                     20




                                                                          20




                                                                                       20




                                                                                                                      20
                  20




                              20

                                   20




                                                20




                                                            20

                                                                   20




                                                                                 20




                                                                                              20

                                                                                                      20

                                                                                                           20

                                                                                                                20




                                                                                                                              20

                                                                                                                                      20

                                                                                                                                              20

                                                                                                                                                      20
                                                                                                                 Acela_ALF_Modeling.xls/Scenarios_II_III_WOCafe
            Procurement cost in 2014/2015 (capacity increase)
            Procurement cost in 2019/2020 (fleet replacement)



In 2008 Amtrak management expressed concerns with Acela capacity constraints.46 At that time,
Acela’s average load factor was 63 percent.47 Therefore, for this high-level analysis, we are
using a 60 percent load factor to indicate a capacity-constrained condition. As shown in the
figure above, the option of procuring five complete additional train sets (orange line) keeps the
average load factor below 60 percent only for about 2 years. The option to procure 40 new cars48
and two train sets (blue line) provides significantly more capacity than needed in the early years
but then also fails to provide sufficient capacity to meet the demand after 2024.

Based on this high-level analysis, neither of the Fleet Strategy’s recommended courses of action
appears to satisfy the forecast demand through 2030. Moreover, this analysis was based on
maintaining the average load factor below 60 percent, when in reality the demand for Acela seats
is not constant and varies by season, day of week, time of day, direction of travel, and location
within the NEC.

For example, the following illustration shows capacity constraints (when ridership demand
exceeded Acela’s seat capacities and passengers had to be turned away) in Business Class for
Acela trains from August 2007 to July 2008.


46
   Testimony before the House Committee on Transportation and Infrastructure on October 29, 2008, where details
of the Acela peak load factors for July 2008 were discussed.
47
   Amtrak Route Performance Report for July 2008, p. C-4A.
48
   We assume that the two cars that are added per train set have Business Class seating.
                                                                                                                   37
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011


                    Acela Express Capacity Constraints             (Business Class August 2007 – July 2008)


              Northbound Trains


                      • Heavy early morning constraints
                        Mon to Thu                                 • Heavy afternoon constraints
              WAS                                             NY      Thu, Fri, and Sun                   BOS
                      • Heavy afternoon constraints
                        Tue to Fri and Sun




                                                                                            Southbound Trains

                      • Heavy morning constraints                  • Moderate early morning constraints
                        Mon to Thu                                    Mon to Wed, and Sat
                      • Heavy afternoon/evening constraints        • Moderate late morning constraints
              WAS       Tue to Fri                            NY      Fri to Sun                          BOS
                      • Moderate afternoon constraints             • Heavy afternoon constraints
                        Sun                                           Fri and Sun




Given the constraints shown in the figure above, adding capacity uniformly to all trains would
not be very efficient because trains that never reach their maximum capacity will carry most of
the extra seats. A more efficient use of new capacity would be to focus the additional seats at the
peak periods by adding more cars or train sets at those times.

Does the Fleet Strategy Replace and Enhance the Acela Fleet in a Manner that is
Economical to the Taxpayer?
Both courses of action discussed in the Fleet Strategy require significant financial investments
for fleet procurements. The investment cost estimates are $1.2 billion for the first course of
action and $1.0 billion for the second. However, the strategy lacks sufficient information with
which to determine which course of action is more economical. In addition, unanswered
questions remain that could have a material impact on the estimates.

The first course of action—adding two cars per existing train set and replacing the whole Acela
fleet in 2019–2020—would mean that the additional cars would run for only 5–6 years before
replacement. This is far shorter than their expected economic life.

In addition, the two additional train sets planned under this course of action would have to be
very similar to the current Acela technology,49 if they are to be delivered in 2014. If the
additional two train sets were to remain in service after the old Acela equipment is replaced in
2020, Amtrak could be required to continue to maintain two different versions of the Acela
trains. This assumes that the Acela II will utilize a completely new generation of technology.


49
  A deadline of 2014–15 to deliver new Acela train sets does not allow time for new equipment design. Thus, only
the technologically relatively old Acela could be manufactured and delivered, if even it could be.
                                                                                                                  38
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

Retaining two different Acela train sets would require stocking and maintaining two sets of
repair parts and tools, along with maintenance expertise on both train sets.

This course of action would also require additional capital investments in Acela maintenance
facilities and infrastructure because the facilities and infrastructure are sized for six-car consists.

The second course of action—procuring five additional train sets in 2014–2015—does not
address whether sufficient NEC infrastructure slots are available to run these trains, given that
the peak demand occurs when most other operators (MARC, NJT, SEPTA,50 Metro North, Long
Island Railroad, etc.) are also using existing track capacity. If additional investments are needed
to expand the NEC infrastructure capacity, they would be critical factors in a financial
assessment of this course of action.

Further, running these additional sets with the replacement fleet in 2020 could require Amtrak to
stock and maintain two sets of repair parts and tools, along with maintenance expertise on both
types of equipment, which requires more maintenance staff than for a homogenous fleet.

The Fleet Strategy does not contain an operational and financial assessment of the two courses of
action that could be used to simulate cost and revenue performance for various schedule and
capacity options to reach an informed decision on how to proceed.


Conclusion

The Fleet Strategy’s plan for Acela Express’ replacement and expansion lacks a disciplined and
detailed approach to identify the best operational and economic solution to satisfy projected
ridership demand. Such an approach would compare the different options using operational and
financial assessments that simulate cost and revenue performance for various schedule and
capacity options, considering all of the relevant factors in the context of a strategic focus for
Acela service.51


Recommendation

We recommend that the President and CEO ensure that future strategy updates include the results
of an Acela Express replacement and expansion plan that is linked to a clear strategic focus for
the service and considers alternatives in the context of strategic goals, forecast demand and
revenue scenarios, cost performance, and other relevant factors.



50
  Maryland Area Regional Commuter, New Jersey Transit, Southeastern Pennsylvania Transportation Authority.
51
  This exercise would calculate the net present value of expected revenue and cost flows over a predefined time
period. Cost would include all relevant positions to operate the service, including all capital investments and
operating expenses.
                                                                                                 39
                        Amtrak Office of Inspector General
                 Evaluation of Amtrak’s FY 2010 Fleet Strategy:
  A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                       Report No. E-11-2, March 31, 2011

Management Comments and OIG Analysis

Management responded as follows:

      “Management agrees with the recommendation. In fact, Acela enhancement and
      replacement plans have been further addressed in the FY 2011 version of the Fleet
      Strategy Plan. This work has been aligned with the larger vision for Acela that has been
      developed and continues to be refined within Amtrak by the recently appointed Vice
      President—High Speed Rail.”

We consider management’s comments to be responsive to our recommendation.
                                                                                                      40
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011

ROLLING STOCK ACQUISITION APPROACH

Fleet Strategy’s Acquisition Approach Will Likely Result in Higher
Equipment Prices and Maintenance Expenses; Amtrak Has Not
Demonstrated that the Benefits Will Offset Potential Increased Costs
Our research indicates that the quantities of cars called for in Amtrak’s Fleet Strategy for annual
delivery—65 single-level and 35 multi-level cars—appears to be lower than needed for some
manufacturers to most efficiently operate their production lines. Further, Amtrak’s plan of
ordering relatively small car quantities could prevent it from taking advantage of lower unit
prices generally associated with larger orders. Taken together, Amtrak’s approach will likely
lead to higher unit costs. The unit price of Amtrak’s equipment acquisitions will be a major
factor that determines Amtrak’s total capital funding requirements over the 30-year planning
period. For example, each 10-percent change in the unit price of cars, locomotives, and train sets,
would have a $1.4 billion impact on the capital-funding requirement for the program. Amtrak
states that this approach is intended to provide support for a competitive supplier base, but the
Fleet Strategy does not provide sufficient evidence to show that the likely higher unit costs
would be offset by the benefits gained.

Procurement Approaches Can Influence Procurement Prices
Amtrak can influence the cost of acquiring new equipment through its approach to the
procurements. For example, Amtrak can attempt to reduce the prices of manufacturers’ proposals
by
       specifying large quantities of equipment per order, enabling manufacturers to realize
        efficiencies and economies of scale; and
       defining production and delivery rates that will allow manufacturers to achieve efficient
        manufacturing cost performance.
                                                                                                                               41
                           Amtrak Office
                                       e of Inspecto
                                                   or General
                    Evaluatio
                            on of Amtraak’s FY 2010 0 Fleet Stra
                                                               ategy:
     A Com
         mmendable
                 e High-Leve
                           el Plan That Needs Dee  eper Analys sis and Plan
                                                                          nning Integrration
                          Reeport No. E--11-2, March
                                                   h 31, 2011

Placing
      g Large Equ
                uipment Orders Enab
                                  bles Manuffacturers tto Offer Lo
                                                                 ower Unit
Prices
Manufacturing costs consist of variable prod    duction
costs (forr example, for
                      fo labor and material) an  nd fixed
costs (forr research an
                      nd developm ment, producttion
engineeriing, etc.). Laarger orders allow fixed costs to be
spread ouut over moree units, resullting in loweer overall
unit costss. Large ordeer quantitiess also enable
manufactturers to purrchase compo    onents (for example,
                                                 e
HVAC52 systems) in bulk orders, with betterr unit
pricing th
         han small orrders.

In additioon, one of th
                      he major facttors affectingg
efficiencyy in the mannufacturing industry
                                   i        is th
                                                he learning
curve. Acccording to this
                       t concept, illustrated in i the
figure to the right, the number off labor hourss required
to complete a unit off production will decreasse by a
constant percentage each
                       e    time the manufactu  urer doubles its productioon quantity. This figure
illustrates how the coost of a unit of
                                    o productio on varies for various learrning rates annd units of
productio on.53

To illustrrate the potential impact of the size of
                                                o the producction order oon unit costss, the followiing
figure haas been prepaared using thhe NASA Leearning Curvve Calculator.54 The bluee line, whichh
representts the margin nal productio
                                   on cost of eaach car, dem
                                                           monstrates thee impact of tthe learning
curve on production unit costs. TheT orange liine demonstrrates the imppact of both the learningg
curve and d spreading fixed costs on
                                   o the total average
                                                a        costt of each car.. A higher orrder size resuults
in signifiicantly lowerr unit costs—
                                   —a lost oppoortunity if Am mtrak plans for relativelly small ordeer
sizes.




52
   Heating,, ventilation, an
                           nd air conditionning.
53
   The conccept of the learrning curve waas introduced to o the aircraft inndustry in 19366 when T.P. W
                                                                                                      Wright publishedd an
article in th
            he February 19 936 Journal off the Aeronauticcal Sciences. T The concept of the learning cuurve is still
applicable to the manufaccturing industrry, and to the ro olling stock maanufacturing inndustry in partiicular. Discusssions
of this concept with an acctive rolling stoock manufactu urer revealed thhat its managem ment definitelyy agreed that thhere
was a learn ning curve assoociated with the manufacturin  ng and assemblly of rail passeenger equipmennt.
54
   http://cost.jsc.nasa.gov
                          v/learn.html. Th he learning currve model usess a percentage oof 85, which iss appropriate foor
major man  nufacturing processes such as aerospace and   d shipbuilding, and is peggedd to the $3.5 miillion unit pricee for
single-leveel cars in Amtraak’s Fleet Straategy.
                                                                                                                                       42
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

                                                            Average Unit Cost vs. # Units
                   $9,000
                                                                                                          -illustrative-
                   $8,000

                   $7,000
                                           Avg. Unit Cost with Fixed R&D Investment
                   $6,000
      Cost (000)




                   $5,000

                   $4,000
                                                                                                          Lost Opportunity
                   $3,000

                   $2,000
                             Marginal Production Unit
                   $1,000    Cost (= Learning Curve)

                      $0
                            10   20   30     40   50   60   70   80   90   100 110 120 130 140 150 160 170 180 190 200
                                                                           # Units                   LearningCurveEstimates_2.xls/LC




We asked LTK to study past rail car orders to see if this concept is reflected in reality. Although
other factors may also influence unit prices, LTK’s review of recent procurements confirmed that
larger car orders generally resulted in lower unit prices.55

Matching Delivery Rates to the Manufacturer's Production Line Capacity May
Result in Higher Efficiency and Lower Unit Costs
Manufacturers of rail passenger cars use production lines to build and assemble body shells and
components. To determine the production rates of current manufacturers, we visited the
Kawasaki plant in Yonkers, N.Y. Interviews with key management and first-line supervisors
revealed that the assumed delivery and production rates in Amtrak’s Fleet Strategy (maximum of
65 single-level cars per year) are significantly lower than the most efficient capacity of any of the
plant’s production lines (100–120 cars per year). If a manufacturer had to build only 65 cars per
year on a production line with this capacity, it would either have to run the line at a slower speed
and less efficient rate, or start and stop the line during the year. Consequently, production costs
will be higher.

In a June 2010 report, Transit Rail: Potential Rail Car Cost-Saving Strategies Exist,56 the
Government Accountability Office (GAO) addressed railcar manufacturing costs. GAO reported
“once there is a break in production, expenses are incurred because manufacturers and
component suppliers may need to reconfigure or retool their production line before they can
begin producing rail cars and their component parts.” The report offered this example:
55
   LTK Engineering Services: AMTRAK NEC NORTHEAST REGIONAL, Alternate Passenger Coach Study,
September 28, 2010, p. 44.
56
   U.S. Government Accountability Office, Transit Rail: Potential Rail Car Cost-Saving Strategies Exist, GAO-10-
730 (Washington, D.C., June 30, 2010).
                                                                                                                    43
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

         VRE [Virginia Railway Express] was able to purchase cars for $1.6 million per
         car from an active production line, but then later paid $2.2 million per car
         “because the manufacturer had to restart the production line for this car design.”

The unit price of Amtrak’s equipment acquisitions will be a major factor that determines
Amtrak’s total capital funding requirements over the 30-year planning period. Each 10-percent
change in the unit price of cars, locomotives, and train sets, would have a $1.4 billion impact on
the capital-funding requirement for the program.

Amtrak May Incur Additional Operating Costs if it Procures from Many
Manufacturers
In addition to potentially higher unit procurement costs, Amtrak’s procurement plan could also
significantly affect the operating and maintenance expenses of the rolling stock fleet if multiple
manufacturers produce Amtrak’s equipment. It is usually desirable to own and operate a
standardized equipment fleet. By owning and operating a non-standardized fleet produced by
multiple manufacturers, Amtrak may incur higher operating expenses in the future for a number
of reasons, including the following:
        Duplicate inventories of parts and equipment components will be required.
        Additional training will be required to familiarize maintenance crews with the multiple
         types of equipment, components, and systems.
        The efficiency of servicing and maintaining the equipment will suffer.

Amtrak’s Fleet Strategy Plans to Support a Competitive Passenger Rail Car
Supplier Base
One of the goals of Amtrak’s Fleet Strategy is “to support a competitive supplier base and avoid
the boom and bust cycles seen in the past.”57 The Fleet Strategy plans to accomplish this
objective by placing relatively small procurement orders, opening these procurement orders to
competitive bids, and spreading out the equipment deliveries over an extended period of time
(2011-2040), as illustrated in the following figure.58




57
  Amtrak Fleet Strategy, p. 35
58
  If Amtrak implements our recommendation to operate more cars that are multi-level, it would procure more multi-
level and fewer single-level cars.
                                                                                                                                                                                                                                   44
                           Amtrak Office of Inspector General
                    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
     A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                          Report No. E-11-2, March 31, 2011

                                                                            Amtrak
                                                                             Amtrak Fleet  Strategy
                                                                                    Fleet Strategy    - Introduction
                                                                                                   - Introduction      ofCars
                                                                                                                  of New  New Cars

                        70

                        60                                                                                                                                              New Single-Level Introductions
                                                                                                                                                                        New Multi-Level Introductions
                        50
       Number of Cars




                        40

                        30

                        20

                        10

                            0
                               13



                              15



                              17




                               22



                              24



                              26



                              28




                               33



                              35



                              37
                              10

                              11

                              12



                              14



                              16



                              18

                              19

                              20

                              21



                              23



                              25



                              27



                              29

                              30

                              31

                              32



                              34



                              36



                              38

                              39

                              40
                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20

                            20
                                                                                                                                                                         Fleetdata_Rob_Edgcumbe_Jim mods.xls/GraphNewCars




To assess the impact of Amtrak’s plans on the rail car manufacturing industry in the United
States, we gathered data on the number of current active passenger rail cars built between 2000
and 2009 for all U.S. public transportation agencies operating Heavy Rail and Commuter Rail
equipment. 59 We considered manufacturers for Commuter Rail and Heavy Rail passenger cars as
the ones most likely to build intercity passenger rail cars. The left side of the figure below shows
that from 2000 to 2009, an average of 560 cars per year were delivered to U.S. public
transportation agencies.

                                                                       Active U.S. Fleet Passenger Rail Cars (Built 2000 – 2009)
                                                                                 Heavy Rail and Commuter Rail in U.S.
                                                                                           Total: 5,604 Cars

                                      Passenger Cars by Year of Manufacturing                                                                          Passenger Cars by Manufacturer
                                            Heavy Rail and Commuter Rail                                                                                 Heavy Rail and Commuter Rail
      1,000                                                                                                                   3,000
                                                                                               Heavy Rail
                                                                                                                                                                                                  Heavy Rail
                                                                                               Commuter Rail                  2,500
            800                                                                                                                                                                                   Commuter Rail
                                                           Annual Avg.
                                                            560 Cars                                                          2,000
            600
                                                                                                                              1,500
            400
                                                                                                                              1,000

            200                                                                                                                 500

                        0                                                                                                           0
                                                                 Market_Passenger_Rail_Cars_US_2010.xls/By_Year
                                '00   '01   '02   '03      '04       '05        '06        '07        '08         '09                                                            Market_Passenger_Rail_Cars_US_2010.xls/By_Manuf
                                                                                                                                            n




                                                                                                                                                                                        n




                                                                                                                                                                                                                          )
                                                                                                                                                                        r




                                                                                                                                                                                                       yo
                                                                                                                                                       r*




                                                                                                                                                                                                                        (5
                                                                                                                                                                     Ca
                                                                                                                                         io




                                                                                                                                                                                     io
                                                                                                                                                     Ca




                                                                                                                                                                                                    ar
                                                                                                                                      at




                                                                                                                                                                                   at




                                                                                                                                                                                                                      s
                                                                                                                                                                   il




                                                                                                                                                                                                  Sh




                                                                                                                                                                                                                    er
                                                                                                                                    or




                                                                                                                                                                                 rt
                                                                                                                                                                 Ra
                                                                                                                                                  il
                                                                                                                                                Ra




                                                                                                                                                                                o




                                                                                                                                                                                                                  th
                                                                                                                                    rp




                                                                                                                                                                                                 n
                                                                                                                                                                             sp
                                                                                                                                                                 i




                                                                                                                                                                                                                O
                                                                                                                                                                                              po
                                                                                                                                Co




                                                                                                                                                              ak
                                                                                                                                                 i




                                                                                                                                                                            an
                                                                                                                                              ak



                                                                                                                                                            as




                                                                                                                                                                                             p
                                                                                                                              er




                                                                                                                                                                           Tr
                                                                                                                                            as




                                                                                                                                                                                          Ni
                                                                                                                                                         aw
                                                                                                                                i



                                                                                                                                            w
                                                                                                                             rd




                                                                                                                                                                        m
                                                                                                                                                       /K
                                                                                                                                         Ka
                                                                                                                         ba




                                                                                                                                                                       o
                                                                                                                                                                    st
                                                                                                                                                     m
                                                                                                                         m




                                                                                                                                                                  Al




                                                                                                                                                                                * formerly Kawasaki Heavy Industries
                                                                                                                                                    o
                                                                                                                        Bo




                                                                                                                                                 st




                        Source: 2010 APTA Vehicle Report
                                                                                                                                                Al




59
 Source of data and definitions of Commuter Rail and Heavy Rail: APTA 2010 PUBLIC TRANSPORTATION
FACT BOOK, 61st Edition, April 2010, published by the American Public Transportation Association.
                                                                                                   45
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011

Based on the data from 2000 to 2009, the Fleet Strategy’s plan to have 100 cars delivered every
year would represent an average increase of 18 percent in the passenger rail car market.
However, Amtrak does not explain how this amount would be sufficient to create significant
increased competition among existing market players or attract new manufacturers to enter the
market.
As seen in the above-described passenger rail market from the manufacturers’ perspective (right-
side figure above), there are already multiple firms in the market, with three dominant
manufacturers: Bombardier, Kawasaki, and Alstom. We expect that a considerable amount of
competition already exists in this market.


Conclusion

The procurement approach can have a significant impact on manufacturers’ production costs and
consequentially equipment prices. Amtrak plans for relatively small order quantities and annual
delivery rates that will likely lead to higher equipment prices. While Amtrak states that this
approach is intended to provide support for a competitive supplier base, the Fleet Strategy does
not provide sufficient evidence to show that the likely higher unit costs would be offset by the
benefits gained.


Recommendation

We recommend that the President and CEO ensure that future strategy updates clearly
demonstrate how Amtrak’s procurement approach results in the most cost-effective use of its
funds while advancing support for a competitive supplier base.


Management Comments and OIG Analysis

Management responded as follows:

       “Management agrees with the recommendation. The description of the current
       procurement approach has been more clearly outlined in the FY 2011 version of the Fleet
       Strategy Plan. Actual acquisitions will be batched as appropriate and delivery rates will
       be negotiated for best value.

       “Management believes that the combination of the refinements made to the FY 2011
       Fleet Strategy Plan and the definition of the requirements at the acquisition stage will
       meet the needs of gaining best value for use of Amtrak’s funds.”

We consider management’s comments to be responsive to our recommendation.
                                                                                                      46
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011

INTEGRATION OF SYSTEMATIC FLEET PLANNING PROCESS INTO
AMTRAK’S OVERALL STRATEGY

Amtrak Did Not Develop the Fleet Strategy as Part of an Overall Fleet
Planning Process that was Integrated with Other Strategic Plans and
Activities

Amtrak did a commendable job of developing its Fleet Strategy, particularly considering the
brief time frame available to meet the congressional deadline, and it plans to continually refine
and update the strategy. However, the strategy was not developed as part of a systematic process
integrated with other strategic plans and activities. Using a systematic and integrated process for
future updates would help ensure that the Fleet Strategy best meets Amtrak’s needs in the most
cost-effective way.

A Comprehensive Model Would Help Amtrak Implement a Systematic Process for
Fleet Planning
Based on our review of the Fleet Strategy and research into equipment planning processes and
practices, we have outlined a model, shown in the figure below, of an overall process that could
be used for long-term equipment planning.
                                                                                                          47
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011

                                           Fleet Planning Process
                    Rolling Stock Requirements                  Rolling Stock Availability
                Existing routes          New routes and           Pool of existing rolling stock
                                         route extensions    (includes wrecked or stored equipment that
                                                                         can be refurbished)
                    Ridership demand and ridership
                           demand forecast
                       (including scenario analyses)
                                                                   Economic useful life analysis
                                                                    (includes a technical condition
               Determination service and service level to                    assessment)
                   meet projected ridership demand
                  (equipment type and consist, schedules/
                       frequencies, load factors, etc.)
                                                                     Long-term rolling stock
                  Determination of number of rolling                   retirement profile
                stock required to operate the planned
                                service

                 Addition of rolling stock required for          Equipment service availability
                  workshop and operational protect                    improvement plan

                   Total number of rolling stock               Total number of rolling stock
                       required for service                        available for service
                                                  Procurement Plan
              • Match required vs. available equipment   • Consider procurement and manufacturing
              • Determine number and type of               lead time
                equipment to be procured                 • Determine procurement approach




This model includes the key factors that should be considered and is organized into three main
sections:
      Rolling Stock Requirements. These determine how much and what kind of equipment is
       required to run planned services. As discussed, the demand for rolling stock depends
       heavily on the projected ridership demand on existing routes, but also on plans for new
       routes. According to the route-specific ridership demand patterns, existing load factors,
       and other surrounding circumstances, the service levels are selected, train schedules are
       developed, and suitable equipment types are identified. This then determines the number
       of pieces of equipment necessary to run the service. To account for mechanical and
       operational issues, an additional percentage of equipment is added.
      Rolling Stock Availability. This determines how much of the existing fleet is available
       for the planned services and when it is economically reasonable to retire the equipment.
       Based on the determination of the equipment's optimal economic useful life and the
       existing pool of rolling stock, a long-term retirement profile is developed. The
       availability improvement plan is taken into consideration.
      Procurement Plan. This determines when and how much of what type of equipment
       should be procured, and the most economical procurement approach for Amtrak and the
       taxpayer. Finally, after long-term rolling stock requirements and availability have been
                                                                                                        48
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011

       matched, a procurement plan is developed for the different types of equipment. It also
       considers procurement and manufacturing lead time and the optimally economical
       procurement approach (under the specific circumstances).

The process should be applied to each route and service and is ultimately aggregated and
consolidated. On an annual basis, this plan should be revised with the latest updates on strategic
focus, adjustments in demand projections, and improvements in the planning methodology.

The Fleet Planning Process Needs to Be Linked to Other Strategic Plans and
Activities Embedded in Amtrak’s Overall Strategy
The fleet plan needs to be an integrated part of an overall business plan that incorporates all of
the individual plans necessary to run passenger rail services. As discussed throughout Amtrak’s
Fleet Strategy and this report, the Fleet Strategy supports and depends on many other Amtrak
strategies and plans, including the following:
      Business Strategy and Goals. The plan for new procurements depends heavily on
       Amtrak’s network strategy. Amtrak has not yet finalized this strategy; therefore,
       questions have yet to be answered about new service developments and future changes to
       existing services that are necessary to properly project fleet requirements. In addition, the
       states will decide in the future on equipment purchases for their state services (existing
       and potential). The Fleet Strategy at this point plans for replacing all existing equipment
       used in Amtrak’s state services but cannot take for granted that all states will ask Amtrak
       to procure rolling stock to run their services. As states solidify their future plans for rail
       services, the impact on Amtrak’s fleet requirements should be integrated into the Fleet
       Strategy.
      Infrastructure Plan. Decisions on the number of cars that Amtrak can add to a train to
       accommodate growth are limited by the space available on platforms, in stations, yards,
       and maintenance facilities. However, the Fleet Strategy is not integrated with the long-
       term facility and station master plans. In addition, new train services (frequencies and
       new routes) depend heavily on available access to track infrastructure. Currently,
       infrastructure capacity constraints exist on both the NEC and host railroad routes.
       Therefore, any new frequencies and routes will need to be coordinated with the
       infrastructure expansion plans.
      Human Capital Management Plan. Amtrak employees need to have the knowledge,
       skills, and abilities to meet requirements associated with new equipment procurements.
       New generations of rolling stock will use new technologies that may require expertise
       that maintenance and operations staffs may not currently possess. In addition, there may
       not be a sufficient number of employees with expertise in major procurements and
       project management to implement the Fleet Strategy and equipment procurements. To
       ensure that human capital requirements are properly addressed, the Fleet Strategy should
       be linked to a comprehensive Human Capital Management Plan.
                                                                                                       49
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011

Embedding the Fleet Strategy into an overall business planning process, such as the one shown
in the following figure, would help Amtrak ensure that the fleet plan is properly integrated with
Amtrak’s overall strategy and other plans.

                                  Integration of the Fleet Plan into
                                 Amtrak’s overall Business Planning

                        Amtrak’s Overall Business Strategy and Goals

               SD
                 LD
                      NEC
                                         Business Plan — Profit & Loss
                                                            Operating and Capital


                             Pricing            Fleet
                                                Plan                       Human     Infra-
                              and                                          Capital   struc-    Other
                            Revenue
                                         Rolling Stock   Availability of
                                         Requirements    Rolling Stock
                                                                           Manage-    ture
                              Plan                                                            Plans…
                                               Procurement Plan
                                                                            ment      Plan
                                                                            Plan




                              Fleet Plan
                Rolling Stock          Availability of
                Requirements           Rolling Stock


                            Procurement Plan




These business plans start on a route level, roll up to business lines, and finally aggregate to a
corporate-wide business plan supporting Amtrak’s strategic goals. The business plans provide
the methodology for revenue as well as capital and operating cost planning to assess the financial
performance of different service, revenue, and cost scenarios. This would enable Amtrak to
select the economically best solution out of various possible and feasible service options.


Conclusion

A more sophisticated and detailed planning process is needed to help ensure that the estimates
and assumptions in the Fleet Strategy are accurate and reliable. In addition, a more integrated
planning approach will help to ensure that the Fleet Strategy is tied to other strategic plans and
activities. Therefore, embedding a sophisticated and detailed fleet planning process into the
corporate planning process is essential to improving the quality of Amtrak's planning.
                                                                                                       50
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011


Recommendation

We recommend that the President and CEO ensure that future updates of the Fleet Strategy are
based on a more systematic and iterative planning process, one that is integrated with Amtrak’s
overall strategy and linked to other strategic plans and activities. This should include a financial
assessment to identify the most economical solution for Amtrak and the taxpayer.


Management Comments and OIG Analysis

Management responded as follows:

       “Management agrees with the recommendation. We are in the process of strengthening the
       fleet strategy planning process and have begun recruiting a fleet strategy manager. We will
       also ensure that fleet planning is appropriately integrated with other strategic planning
       activities and published documents. Some of the more detailed analyses contained in the
       report recommendations, such as use of multi-level cars, improved availability
       opportunities, replacement vs. overhaul decisions, and economic useful life decisions will
       be part of the strategic planning process for the company as a whole and each line of
       business. We will ensure that the results of those analyses are reflected in our annual fleet
       strategy updates.”

We consider management’s comments to be responsive to our recommendation.
                                                                                          51
                      Amtrak Office
                                  e of Inspecto
                                              or General
               Evaluatio
                       on of Amtraak’s FY 2010 0 Fleet Stra
                                                          ategy:
A Com
    mmendable
            e High-Leve
                      el Plan That Needs Dee  eper Analys sis and Plan
                                                                     nning Integrration
                     Reeport No. E--11-2, March
                                              h 31, 2011

                                   Ap
                                    ppendix I

       COMMENTS FR
                 ROM AMT
                       TRAK’S P
                              PRESIDEN
                                     NT AND C
                                            CEO
                                                                                          52
                      Amtrak Office
                                  e of Inspecto
                                              or General
               Evaluatio
                       on of Amtraak’s FY 2010 0 Fleet Stra
                                                          ategy:
A Com
    mmendable
            e High-Leve
                      el Plan That Needs Dee  eper Analys sis and Plan
                                                                     nning Integrration
                     Reeport No. E--11-2, March
                                              h 31, 2011
                                                                                          53
                      Amtrak Office
                                  e of Inspecto
                                              or General
               Evaluatio
                       on of Amtraak’s FY 2010 0 Fleet Stra
                                                          ategy:
A Com
    mmendable
            e High-Leve
                      el Plan That Needs Dee  eper Analys sis and Plan
                                                                     nning Integrration
                     Reeport No. E--11-2, March
                                              h 31, 2011
                                                                                          54
                      Amtrak Office
                                  e of Inspecto
                                              or General
               Evaluatio
                       on of Amtraak’s FY 2010 0 Fleet Stra
                                                          ategy:
A Com
    mmendable
            e High-Leve
                      el Plan That Needs Dee  eper Analys sis and Plan
                                                                     nning Integrration
                     Reeport No. E--11-2, March
                                              h 31, 2011
                                                                                                    55
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011

                                          Appendix II

                           EVALUATION METHODOLOGY
To review Amtrak’s Fleet Strategy, we used a combination of qualitative and quantitative
techniques. We conducted a comprehensive set of interviews with key Amtrak employees and
contractors involved in the preparation of the strategy. We interviewed people who provided
critical support data, made policy and program decisions, and/or prepared the written strategy
document. The information obtained through these interviews, in combination with the
information in the Fleet Strategy itself and other supporting documents, identified the specific
data and assumptions Amtrak used to support the projected investment of $23 billion.

To assess the reasonableness of the data and assumptions, we analyzed the supporting data to
determine its accuracy and relevance, considered the applicability of the assumptions, and
reviewed available literature to identify the typical processes used to support major asset
replacements. In reviewing rolling stock retirement criteria, we benchmarked Amtrak’s
methodology against typical asset-replacement ages and decision drivers for equipment
replacements from European railroads by using the services of SCI Verkehr, a German company
specializing in international railroad rolling stock consulting. On the question of whether it is
feasible and practical to run multi-level cars on Amtrak’s Northeast Corridor, we asked LTK
Engineering Services to study the issue and provide us with a report analyzing the relevant
concerns. To understand equipment availabilities achieved by other passenger rail operators, we
used benchmark data provided by BSL Transportation Consultants. Finally, to obtain
information on rail car manufacturing practices, we visited Kawasaki’s plant in Yonkers, New
York.
                                                                                              56
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011

                                         Appendix III

                                        OIG TEAM


This evaluation was carried out and the report written under the direction of Calvin Evans,
Assistant Inspector General for Inspections and Evaluations (I&E). Team members included
Nico Lindenau (Director I&E), and Jim Simpson (Chief I&E).
                                                                                          57
                         Amtrak Office of Inspector General
                  Evaluation of Amtrak’s FY 2010 Fleet Strategy:
   A Commendable High-Level Plan That Needs Deeper Analysis and Planning Integration
                        Report No. E-11-2, March 31, 2011


            OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission         Amtrak OIG’s mission is to

                                conduct and supervise independent and objective
                                 audits, inspections, evaluations, and investigations
                                 relating to Amtrak programs and operations;

                                promote economy, effectiveness, and efficiency within
                                 Amtrak;

                                prevent and detect fraud, waste, and abuse in Amtrak's
                                 programs and operations;

                                review security and safety policies and programs; and

                                review and make recommendations regarding existing
                                 and proposed legislation and regulations relating to
                                 Amtrak's programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony
To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                             Web:         www.amtrakoig.gov/hotline
                             Phone:       800-468-5469
Congressional Affairs &      E. Bret Coulson
Public Relations             Congressional Affairs & Public Relations

                                 Mail:       Amtrak OIG
                                             10 G Street, N.E., 3W-300
                                             Washington, DC 20002
                                 Phone:      202-906-4134
                                 Email:      bret.coulson@amtrakoig.gov
